 AUDIT OF OFFICE OF JUSTICE PROGRAMS

WEED AND SEED GRANTS AWARDED TO THE

      CITY OF ATLANTA, GEORGIA



      U. S. Department of Justice

     Office of the Inspector General

              Audit Division


      Audit Report GR-40-13-003

           September 2013

         AUDIT OF OFFICE OF JUSTICE PROGRAMS

        WEED AND SEED GRANTS AWARDED TO THE 

              CITY OF ATLANTA, GEORGIA


                         EXECUTIVE SUMMARY


      The Department of Justice (DOJ) Office of the Inspector General
(OIG), Audit Division, has completed an audit of Office of Justice
Programs (OJP) Weed and Seed grants awarded to the City of Atlanta,
Georgia.

      The Weed and Seed strategy is intended as a comprehensive,
coordinated, and collaborative response to resolving neighborhood
problems. “Weeding” activities are directed toward reducing crime
while complementing the “seeding” activities that provide direct
services to residents. Four elements make up the two-pronged Weed
and Seed strategy – law enforcement; community policing;
prevention, intervention, and treatment; and neighborhood
restoration. As shown in Exhibit I, the City of Atlanta was awarded
$1,116,000 under the Weed and Seed program since 2007.

         Exhibit I: Weed and Seed Grants Awarded to

                  The City of Atlanta, Georgia

      Award           Award           Award        Award
     Number         Start Date       End Date     Amount
2007-WS-Q7-0088           10/01/2007          06/30/2009        $200,000
2007-WS-Q7-0250           10/01/2007          06/30/2009        $175,000
2008-WS-QX-0219           10/01/2008          12/31/2010        $150,000
2008-WS-QX-0221           10/01/2008          12/31/2010        $150,000
2009-WS-QX-0123           10/01/2009          09/30/2011        $142,000
2009-WS-QX-0125           10/01/2009          09/30/2011        $142,000
2010-WS-QX-0094           10/01/2010          03/31/2012        $157,000
                                                     Total   $1,116,000
Source: Office of Justice Programs’ records

       For the City of Atlanta, a Weed and Seed Steering Committee
was responsible for monitoring progress and goals and objectives,
approving changes to the strategic plan, overseeing the coordination
of programs and services, and selecting targeted neighborhoods. As
the fiscal agent for the Weed and Seed grants, the city is responsible
for ensuring that grant funds are used appropriately and that the goals
and objectives of the grants are met.



                                         i
Audit Results

      The purpose of the audit was to determine whether the City of
Atlanta used grant funds for costs that were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the grants and whether the city met or was on track
to meet the goals and objectives outlined in the grant programs and
applications.

       The objectives of the audit were to determine whether the City
of Atlanta complied with essential grant conditions pertaining to:
(1) internal controls, (2) grant drawdowns, (3) grant expenditures,
(4) budget management and control, (5) matching costs, (6) property
management, (7) financial and grant progress reports, (8) grant goals
and accomplishments, and (9) monitoring sub-recipients.

      The city was slow in providing records and other information we
needed to complete the audit objectives. We began the audit on
September 21, 2011, but most of the documents we requested in
advance were not provided for weeks or months. Some records were
never provided. Over the course of the audit we followed up multiple
times with phone calls and e-mails, but the city’s Weed and Seed
Director sometimes did not respond to us for weeks or provided
incomplete or incorrect information. Some of our questions pertaining
to a payment to a former city employee were never answered.

       We met with city officials on August 8, 2012, to discuss the lack
of documentation to support grant expenditures and gave the city a
month to provide those records. After the deadline passed, the city
kept sending documentation. We gave the city a new deadline, but
several days after the new deadline had passed the city sent more
documents. The city told us it tried to send these documents earlier,
but “the e-mail did not go through.” We accepted those and told the
city that any additional documents should be provided along with its
response to the draft audit report. In summary, the city took over
1 year to provide the information we needed to complete the audit.

      We found that the City of Atlanta:

   •	 paid grant expenses without detailed invoices, such as four
      invoices totaling $31,847 that were billed as “reimbursement for
      teen court,” three invoices totaling $20,272 ($7,687, $7,687,
      and $4,898) that were billed as “consulting,” but did not include
      the consultants’ hours or rates, and other similar expenses;


                                    ii
•	 did not adequately review invoices, which resulted in the city
   overpaying one invoice by $11,660;

•	 made advance payments to contractors and other sub-recipients,
   but did not account for how all the advanced funds were spent,
   including a $20,000 advance payment of which $3,084 is
   unaccounted for;

•	 made advance payments to contractors and other sub-recipients,
   but did not ensure the city received or used the goods or
   services that were paid for, including a $12,300 advance
   payment for rent for a period of 1 year after the grant ended and
   a $3,000 advance payment to publish newsletters for a period of
   2 years after the grant ended;

•	 paid for grant projects that were not completed, including
   $2,200 reimbursed to a contractor for “expenses incurred for a
   parent patrol initiative,” which was not completed because of a
   lack of community support;

•	 made duplicate payments totaling $7,904 ($7,300 and $604);

•	 was billed twice for $7,700 for neighborhood coordinator salaries
   for the months of November and December 2009 and recorded
   one invoice as a grant expenditure and the other invoice as a
   matching cost transaction;

•	 miscategorized expenses, which made them appear allowable;

•	 did not comply with the grant budgets approved by OJP;

•	 charged $338,790 in grant expenditures (62.9 percent of the
   grant expenditures we tested) to “Service Grants” expense,
   which was not an approved budget category and is therefore
   unallowable;

•	 charged $117,306 in other unallowable costs to the grants;

•	 charged $29,837 to the grants for costs that are not supported
   by adequate documentation such as original receipts and
   invoices, timesheets, public announcements, meeting agendas,
   sign-in logs, or other documents;



                                iii
  •	 did not use $48,125 in grant funds from six grants, including
     $38,189 from one grant that was not used because the city
     failed to meet the deadline for requesting reimbursement for the
     grant expenses;

  •	 did not provide, or could not show that it had provided, $24,659
     in grant matching costs;

  •	 did not meet, or could not show that it met, 9 of 31 grant goals,
     accomplishments, or other performance measures we tested;
     and

  •	 did not monitor and did not have adequate procedures for
     monitoring contractors and other sub-recipients to ensure they
     met the fiscal and programmatic requirements of the grants and
     were on track to meet grant goals. The monitoring requirement
     is explained in the OJP Financial Guide.

      Based on our audit results, we make four recommendations to
address $393,869 in questioned costs and three recommendations to
improve the management of DOJ grants. These are discussed in detail
in the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology are discussed in Appendix 1.




                                  iv
                           TABLE OF CONTENTS


INTRODUCTION........................................................................ 1

     Background.......................................................................... 2

     Audit Approach..................................................................... 2

FINDINGS AND RECOMMENDATIONS ....................................... 5

     Internal Controls .................................................................. 5

          Financial Management System.......................................... 5

          Internal Control Weaknesses ............................................ 6

          Single Audits .................................................................. 8

     Drawdowns .......................................................................... 9

          Grant Funds Not Used ..................................................... 9

     Grant Expenditures ..............................................................11

          OMB Circular A-87 .........................................................11

          OJP's Food and Beverage Policy .......................................11

          Weed and Seed Grant Program Guidance..........................12

          Grant Expenditure Test Results........................................12

          Personnel Costs .............................................................13

          Administrative Costs ......................................................14

          Unallowable Other Direct Costs........................................14

          Unallowable "Service Grants" Expenses ............................19

          Unsupported Costs .........................................................19

     Budget Management and Control ...........................................20

     Matching Costs ....................................................................22

     Property Management ..........................................................23

     Grant Reports .....................................................................24

          Financial Reports ...........................................................24

          Progress Reports ...........................................................25

     Grant Goals and Accomplishments .........................................25

     Monitoring Sub-recipients .....................................................29

     Conclusion ..........................................................................30

     Recommendations ...............................................................31

Appendix 1 - Objectives, Scope, and Methodology ................. 33

Appendix 2 - Schedule of Dollar-Related Findings .................. 35

Appendix 3 - Details of Unallowable Other Direct Costs ......... 36

Appendix 4 - Details of Costs Not Supported by Adequate

             Documentation.................................................. 41

Appendix 5 - Matching Costs Not Provided or Not Supported

             By Adequate Documentation ............................. 47

Appendix 6 - The Office of Justice Programs' Response to

             the Draft Report ................................................ 49

Appendix 7 - The City of Atlanta's Response to

             the Draft Report ................................................ 53

Appendix 8 - Office of the Inspector General Analysis

             and Summary of Actions Necessary to

             Close the Report ................................................ 81

                                INTRODUCTION

       The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of Weed and Seed Grants, awarded by the
Office of Justice Programs (OJP), to the City of Atlanta, Georgia. “Weeding”
activities are directed toward reducing crime while complementing the
“seeding” activities that provide direct services to residents. Four elements
make up the two-pronged Weed and Seed strategy – law enforcement;
community policing; prevention, intervention, and treatment; and
neighborhood restoration. The Weed and Seed strategy is intended as a
comprehensive, coordinated, and collaborative response to resolving
neighborhood problems identified during the development of a needs
assessment. The process of developing the strategy begins with convening
a Steering Committee, identifying community partners, notifying the United
States Attorney, and collaborating on a strategy to address those problems.
The Weed and Seed Steering Committee is the policy making body of a
broad base of stakeholders who work together for the benefit of crime
reduction strategies and community reinvestments. The committee
monitors progress towards goals and objectives, approves changes to the
strategic plan, oversees the coordination of programs and services, and
selects the targeted neighborhoods.

       As shown in Exhibit 1, from 2007 through 2010 OJP awarded the City
of Atlanta $1,116,000 to implement Weed and Seed activities.

           Exhibit 1: Weed and Seed Grants Awarded to the 

                       City of Atlanta, Georgia

            Award                           Award    Award
                       Award Start Date
           Number                          End Date Amount
      2007-WS-Q7-0088             10/01/2007       06/30/2009   $200,000

      2007-WS-Q7-0250             10/01/2007       06/30/2009   $175,000

      2008-WS-QX-0219             10/01/2008       12/31/2010   $150,000
      2008-WS-QX-0221             10/01/2008       12/31/2010   $150,000

      2009-WS-QX-0123             10/01/2009       09/30/2011   $142,000
      2009-WS-QX-0125             10/01/2009       09/30/2011   $142,000

      2010-WS-QX-0094             10/01/2010       03/31/2012   $157,000
                                                       Total $1,116,000
     Source: Office of Justice Programs’ records




                                            1
     The city is responsible for ensuring that grant funds are used
appropriately and that the goals and objectives of the grants are met.

Background

      The City of Atlanta, with a 2010 population of 420,003, is the capital of
and the most populous city in the State of Georgia. Atlanta is also the
cultural and economic center of the Atlanta metropolitan area, which is
home to about 5.3 million people and is the ninth largest metropolitan area
in the country.

       OJP provides innovative leadership to federal, state, local, and tribal
justice systems by disseminating state-of-the art knowledge and practices
across America and providing grants for the implementation of these crime
fighting strategies.

Audit Approach

      The purpose of this audit was to determine whether the City of Atlanta
used grant funds for costs that were allowable, supported, and in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the
grants and whether the city met or was on track to meet the goals and
objectives outlined in its grant programs and applications.

       The objectives of the audit were to determine whether the City of
Atlanta complied with essential grant conditions pertaining to: (1) internal
controls, (2) grant drawdowns, (3) grant expenditures, (4) budget
management and control, (5) matching costs, (6) property management,
(7) financial and grant progress reports, (8) grant goals and
accomplishments, and (9) monitoring sub-recipients.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the grant award documents, OJP Financial
Guide, Code of Federal Regulations (CFR), and Office of Management and
Budget Circulars (OMB). We tested the City of Atlanta’s:

   •	 internal controls to identify policies, methods, and procedures
      designed to ensure the city and the Weed and Seed program met the
      fiscal and programmatic requirements and the goals and objectives of
      the grants;




                                       2

  •	 grant drawdowns to determine whether grant drawdowns were
     adequately supported and if the City of Atlanta managed grant receipts
     in accordance with federal requirements;

  •	 grant expenditures to determine the accuracy and allowability of
     costs charged to the grants;

  •	 budget management and control to identify any budget deviations
     between the amounts budgeted and the actual costs for each cost
     category;

  •	 matching costs to determine if the City of Atlanta provided the

     required matching share of grant costs;


  •	 property management to determine if property items acquired with
     grant funds are tracked in a system of property records, adequately
     protected from loss, and used for grant purposes;

  •	 financial and grant progress reports to determine if those reports
     were accurate and submitted when they were due;

  •	 grant goals and accomplishments to determine if the City of
     Atlanta and the Weed and Seed project met or was on track to meet
     the goals outlined in the grant programs and applications; and

  •	 monitoring sub-recipients to determine whether the City of Atlanta
     took appropriate steps to ensure that sub-recipients met the fiscal and
     programmatic requirements of the grants.

      In conducting our audit, we performed sample testing in the areas of
grant drawdowns, grant expenditures, matching costs, property
management, and grant goals and accomplishments.

      The city was slow in providing records and other information we
needed to complete the audit objectives. We began the audit on
September 21, 2011, but most of the documents we requested in advance
were not provided for weeks or months. Some documents we requested
were never provided. Over the course of the audit we followed up dozens of
times with phone calls and e-mails. The city’s Weed and Seed Director
sometimes did not respond to us for weeks or provided incomplete or
incorrect information. Some of our questions pertaining to a payment to a
former city employee were never answered.




                                     3

      On August 8, 2012, we met with city officials to discuss the lack of
documentation to support $500,000 of the $1,000,000 in grant expenditures
we tested. We gave the city 1 month to provide those records, but after the
month had passed the city kept sending documents so we gave the city a
new deadline. Several days after the new deadline passed the city sent
more documents. A city official told us the Weed and Seed Director tried to
send the documents earlier, but “the e-mail did not go through.” We
accepted those documents and told the city that any additional documents
should be provided as part of its response to the draft audit report. In
summary, the city took over 1 year to provide the records we needed to
complete the audit.




                                     4

              FINDINGS AND RECOMMENDATIONS

      We found the City of Atlanta did not comply with essential grant
      conditions in the areas of internal controls, grant drawdowns, grant
      expenditures, budget management and control, matching costs, grant
      goals and accomplishments, and monitoring sub-recipients. Most
      significantly, the city charged unallowable and unsupported costs to
      the grants and did not meet, or could not show that it had met,
      9 of 31 grant goals and objectives we tested. The city also did not
      comply with the grant budgets approved by OJP and did not provide,
      or could not show that it had provided, its required matching share of
      grant costs. Based on our audit results, we make four
      recommendations to address dollar-related findings and three
      recommendations to improve the management of DOJ grants.

Internal Controls

       We reviewed the City of Atlanta’s financial management system,
policies and procedures, and Single Audit reports to assess the risk of non­
compliance with laws, regulations, guidelines, and terms and conditions of
the grants. We also interviewed city officials responsible for purchasing and
grant accounting and observed grant management activities to further
assess risk.

Financial Management System

      The City of Atlanta’s financial management system included
applications for payroll, accounting and purchasing, separate accounting for
each grant, and traceability to supporting documentation, but we did not
assess the reliability of the financial system as a whole.

      The city’s policies for administering grants states that the Office of
Grant Services must: (1) review and verify all supporting documentation for
grant expenditures, (2) verify allowable and disallowable costs on all
disbursement requests prior to submitting them to accounts payable,
(3) compare budget to actual expenditures for each approved expense
category at least every 3 months, and (4) monitor and ensure timely
completion of grant closeout activities as required by the awarding agency.
Below we describe internal control weaknesses we found during the audit.




                                      5

Internal Control Weaknesses

      During our testing of grant expenditures, discussed later in this report,
we found the city did not have or did not follow internal controls over the
review, payment, and recording of expenditures.

   •	 The city made advance payments to sub-recipients but did not account
      for how all the funds were spent or ensure that the city received the
      goods or services that were paid for. For example, on August 6, 2009,
      the city made a $20,000 advance payment from Grant Number
      2008-WS-QX-0219 to a contractor to create and manage a computer
      center for public use. The invoices and receipts associated with the
      advance payment total only $16,916. The remaining $3,084 is
      unaccounted for. The internal control policies the city provided to us
      do not address advance payments or the need to reconcile advance
      payments to the goods and services received.

   •	 The city overpaid one invoice by $11,660 because it apparently did not
      review the invoice before making the payment. We asked city officials
      why this happened, but we never received a response. In accordance
      with its policies, the city should review invoices to ensure they are
      accurate before they are paid.

   •	 The city made two duplicate payments totaling $7,904. This occurred
      because the city apparently did not review the supporting documents
      before making the payments. This could have been prevented if the
      city had ensured that payments were supported by original receipts
      and invoices marked “paid.”

   •	 A contractor submitted duplicate billings to the city for $7,700 for
      salaries for a neighborhood coordinator for the months of November
      and December 2009. The invoices (numbers #008 and #010, both
      dated December 1, 2009) were submitted and paid under two different
      purchase orders. The city recorded one invoice as a grant expenditure
      (transaction #115370, 01-Dec-09) and the other invoice as a grant
      matching cost (transaction #133786, 01-Dec-09). We briefed city
      officials about this, but they offered no explanation for the cause. This
      may have occurred because the city did not adequately review invoices
      and other supporting documents before making the payments.

   •	 The city paid grant expenses without detailed original receipts,
      invoices, or other proper supporting documentation. Two invoices for
      $7,687 each for consulting services did not include the hours worked
      or the consultants’ hourly rates. One consultant was a former city


                                       6

     employee. A $4,898 invoice from another former city employee was
     for “consultant work from June 3 through July 8.” The invoice
     identified the grant project, but did not include the hours worked or
     the consultant’s hourly rate. Two invoices for $1,100 each were for
     expenses for a parent patrol initiative, but the invoices did not explain
     what those expenses were. The Weed and Seed Director told us the
     parent patrol project was not fully implemented because of a lack of
     community support. Another invoice for $1,535 was for
     “reimbursement for expenses,” but the invoice did not explain what
     those expenses were. In accordance with its policies, the city should
     ensure that expenditures are supported by detailed invoices and other
     documentation before they are paid.

  •	 The city recorded promotional and marketing expenditures as
     Telephone Expense ($3,981), Auto Allowance ($1,147), Catering
     ($647 and $64), and Non-Consumable Supplies ($263), which made
     all of these expenses appear allowable. However, we question $3,101
     of these expenditures as unallowable because they exceed the $3,000
     annual limit. The city should ensure grant expenditures are properly
     classified in the accounting records.

  •	 The city did not record grant expenses according to the grant budget
     categories approved by OJP. The city recorded $338,790 (62.9
     percent of the expenditures we tested) as “Service Grants” expense,
     but “Service Grants” was not one of the grant budget categories
     approved by OJP. Consequently, we could not assess whether the city
     had complied with the grant budget amounts unless we recreated the
     city’s accounting records, which we did not do. City officials told us
     they used the “Service Grants” expense category for expenses
     submitted by sub-recipients and sub-grantees. Although we could not
     assess whether the city complied with the approved grant budgets, we
     tested all Service Grants expenditures and found unallowable and
     unsupported costs. The results of our testing of grant expenditures
     are presented in the Grant Expenditures section of this report. The
     city should ensure that grant expenditures are recorded according to
     the grant budget categories approved by OJP.

      We recommend that OJP ensure the city implements and follows
procedures to ensure that: (1) expenditures are supported by original
receipts, invoices, and other proper supporting documents and are reviewed
for accuracy before being paid; (2) expenditures submitted for payment
have not already been paid; (3) expenditures are correctly recorded in the
accounting records and according to the expense categories approved in the



                                      7

grant budgets; and (4) advance payments are reconciled to the goods and
services received.

Single Audits

      According to OMB Circular A-133, Audits of States, Local Governments,
and Non-Profits, the City of Atlanta is required to have a Single Audit
performed annually with the report due no later than 9 months after the end
of the audit. The City of Atlanta’s fiscal year is from October 1 through
September 30. The city’s FY 2010 and FY 2011 Single Audit reports were
completed by the due dates.

       We reviewed the FY 2010 and FY 2011 Single Audit reports, which
identified the following audit findings that could affect DOJ grants and the
city’s response to those findings.

   •	 Finding 10-9 – Cash Reporting

      The city has not accurately reported the cash drawn on the line of
      credit from the grantor and the program income generated as a result
      of the program activities on the Quarterly Federal Cash Transactional
      reports. This finding has since been corrected by the city.

   •	 Finding 10-12 – Property Management

      The city did not maintain adequate control over police department
      equipment purchased with grant funds. This finding has since been
      corrected by the city.

   •	 Finding 10-14 – Expenditure Reporting

      There were inconsistencies between activities reported and the general
      ledger. Financial auditors found that the city incorrectly reported
      $207,809 as its share of program expenditures for the third quarter of
      the year. The city corrected this error on the fourth quarter report.
      However, the fourth quarter report was incorrect because Cumulative
      Expenditures were understated by $162,966.

   •	 Finding 11-09 – Internal Controls

      There was a lack of proper review and comparison of amounts on
      Quarterly Federal Cash Transactional reports to data recorded in the
      general ledger.



                                       8

      In May 2012, OJP designated the city as a “high risk” grant recipient
because prior audit findings had been unresolved for more than 1 year. As
of December 2012 the City of Atlanta remained on the DOJ list of high-risk
grantees. 1

Drawdowns

       The OJP Financial Guide, Part III, Chapter 1, requires that recipients
time drawdown requests to ensure that federal cash-on-hand is the
minimum needed for disbursements to be made immediately or within
10 days. Grant recipients have 90 days after the end of the grant award
period to draw down grant funds for costs obligated during the grant award
period. An obligation occurs when funds are encumbered, such as with a
valid purchase order or requisition to cover the cost of purchasing an item
up to the last day of the grant award period. Any funds not obligated within
the grant award period will lapse and revert to the awarding agency. The
obligation deadline is the last day of the grant award period unless otherwise
stipulated.

      Grantee officials told us that drawdowns were based on grant
expenditures recorded in the city’s accounting records. The accounting
records associated with each drawdown included “adjustments,” but we
could not verify the accuracy or the purpose of the adjustments.
Consequently, we could not determine whether the drawdowns agreed with
the accounting records. However, after each of the grants had ended, total
drawdowns generally matched total expenditures recorded in the city’s
accounting records.

Grant Funds Not Used

      During our testing of drawdowns, we noted that the city did not use
$48,125 (4.3 percent) of the $1,116,000 it was awarded. Details of the
grant funds not used are presented in Exhibit 2.




      1
            Under the DOJ high risk grantee program, a grantee may be designated as high
risk if it has a history of unsatisfactory performance, is not financially stable, has an
inadequate financial management system, has not conformed to the terms and conditions of
previous awards, or is otherwise not responsible.



                                           9

                       Exhibit 2: Grant Funds Not Used 2
                               Grant Funds          Grant Funds         Grant Funds
      Grant Number
                                Awarded                Used              Not Used
  2007-WS-Q7-0088                   $200,000             $195,671             $4,330
  2007-WS-Q7-0250                   $175,000             $170,281             $4,719
  2008-WS-QX-0219                   $150,000             $149,294               $706
  2008-WS-QX-0221                   $150,000             $111,811            $38,189
  2009-WS-QX-0123                   $142,000             $141,878               $122
  2009-WS-QX-0125                   $142,000             $141,939                $61
  2010-WS-QX-0094                   $157,000             $157,000                 $0
         Total                   $1,116,000           $1,067,875            $48,125
 Source: OJP records

       After the grants ended OJP deobligated the $48,125 and the funds
were no longer available for the city’s use. We asked city officials why
$4,330 (Grant Number 2007-WS-Q7-0088) and $4,719 (Grant Number
2007-WS-Q7-0250) were not used. A Senior Management Analyst at the
city’s grants accounting office told us this occurred because of a manual
timekeeping process that has now been replaced with a new timekeeping
system that allows for immediate charges to appropriate account numbers.
Prior to the implementation of the automated systems, the city relied on a
manual system and all expenses may not have been recorded.

      We also asked city officials why $38,189 in grant funds for Grant
Number 2008-WS-QX-0221 were not used. City officials told us that only
$2,048 was not used and the remaining $36,141 was used, but was not
reimbursed because the grant expired while the Department of Justice was
reviewing the city’s final drawdown request. However, as described below,
the funds were not reimbursed by OJP because the city did not follow OJP’s
grant closeout procedures.

      The grant ended December 31, 2010, and the city had until March 31,
2011, which was the end of the 90-day grant closeout period, to draw down
funds for costs obligated by end of the grant. On October 11, 2011, which
was 6 months past the end of the 90-day closeout period, the city contacted
OJP to request that it review a revised final financial report. However, OJP
had already administratively closed the grant and deobligated the remaining
$38,189 in grant funds. OJP administratively closes grants when grantees
do not initiate the closeout process within 90 days of the grant end date.
The city lost the use of the funds because it did not meet the 90-day
deadline for making its final grant drawdown.


      2
         Throughout this report, totals may not equal the sum of individual amounts due to
rounding.


                                           10

Grant Expenditures

      According to the OJP Financial Guide, Part III, Chapter 7, allowable
costs are those identified in the circulars and in the grant program’s
authorizing legislation. In addition, costs must be reasonable and
permissible under the specific guidance for the grants.

OMB Circular A-87

      OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments, states that for costs to be allowable under federal awards
they must be necessary and reasonable, conform to any limitations set forth
in the conditions of the federal award, and be adequately documented. In
determining whether a cost is reasonable, grantee’s should consider:
(1) whether the cost is necessary for the performance of the award,
(2) whether the individuals concerned acted with prudence considering their
responsibilities to the public at large and the federal government, (3) sound
business practices and conditions of the federal award, and (4) market
prices for comparable goods or services.

OJP’s Food and Beverage Policy

      OJP’s Food and Beverage Policy for Grants and Cooperative
Agreements states that for food or beverage costs to be allowable all of the
following criteria must be satisfied.

   1. The event at which the food or beverages are provided is an allowable
      activity under the award. 3

   2. The food and beverages are necessary to the event in that attendees
      would not be able to fully participate without food or beverages.

           a. Food and beverages are necessary when there is a need to cover
              essential material in a limited time period, and because of the
              length of the event, it is impractical for attendees to seek
              refreshments or meals elsewhere without missing important
              information. 4



      3
       Allowable Weed and Seed program activities include National Night Out and similar
community events.
      4
          5 U.S.C. § 4109.



                                          11

           b. There should be several hours of substantive instructional
              material presented before and after a refreshment or meal.

           c. Food and beverages are not necessary when provided merely for
              the pleasure or convenience of the attendees.

   3. The food or beverages are provided at the event under appropriate
      circumstances. The event should be supported with a formal agenda
      listing all the activities using an hour-by-hour timeline and include the
      time during the event when the food or beverages will be provided.

   4. The event where the food or beverages are served must be mandatory
      for, and open to, all participants.

Weed and Seed Grant Program Guidance

       The Weed and Seed grant program guidelines describe various types
of allowable and unallowable costs and sets limits on the following types of
allowable costs.

   •	 Administrative costs may not exceed 10 percent of the award 

      amount. 5


   •	 Promotion or marketing costs are limited to $3,000 per year.

   •	 National Night Out and similar community day expenditures may not
      exceed $2,500 per year.

Grant Expenditure Test Results

      We tested $538,754 (50.5 percent) of the $1,067,875 in grant funds
expended. 6 We found that $369,210 (68.5 percent) of the expenditures we
tested was either unallowable or not supported by adequate documentation
such as detailed receipts and invoices, timesheets, public announcements,
meeting agendas, sign-in logs, or other supporting documents. An overall
summary of audit testing of grant expenditures is shown in Exhibit 3.



       5
        The 10 percent limit on administrative costs applies to the 2008, 2009, and 2010
Weed and Seed grants.
       6
         We tested $68,953 in personnel costs and $469,800 in other direct costs for a total
of $538,754 (rounded).



                                            12

      Exhibit 3: Summary of Audit Testing of Grant Expenditures
                               Dollar             Unallowable
                              Value of                                     Not
           Grant Number                     Other         “Service      Adequately
                              Sample        Direct        Grants”
                               Tested                                   Supported
                                            Costs         Expense
      2007-WS-Q7-0088          $121,967      $51,362         $87,990          $7,945
      2007-WS-Q7-0250           $99,770      $18,184         $72,720          $3,550
      2008-WS-QX-0219           $93,841      $10,244         $53,582          $9,457
      2008-WS-QX-0221           $66,190       $3,282         $25,667          $4,445
      2009-WS-QX-0123           $19,183      $21,996         $42,296          $3,012
      2009-WS-QX-0125           $22,659       $2,725         $12,862              $0
      2010-WS-QX-0094           $46,190       $9,513         $43,673          $1,428
      Totals                  $469,800     $117,306        $338,790         $29,837

      Total Questioned Costs                                               $485,933
                          7
      Less: Duplication                                                  ($116,723)
      Net Questioned Costs 8                                               $369,210
     Source: OIG analysis of City of Atlanta records

      Below we describe our detailed testing of personnel costs, unallowable
excess administrative costs, unallowable other direct costs, unallowable
“Service Grants” expenses, and expenditures not supported by adequate
documentation.

Personnel Costs

      The city charged $556,489 to the grants for salaries and fringe
benefits for city personnel and salaries for police officers. We tested $68,952
(12.4 percent) of this amount by tracing these costs to payroll registers,
time and attendance records, and documentation pertaining to fringe benefit
costs. The amounts we tested for each grant are shown in Exhibit 4.




       7
         Total Questioned Costs include $338,790 for unallowable “Service Grants”
expenses. However, $116,723 of this amount was also unallowable for other reasons or
was not supported by adequate documentation such as original receipts, invoices,
timesheets, and other documentation. The purpose of subtracting this $116,723 is to avoid
double counting the questioned costs.
       8
          Net Questioned Costs are the result of our testing of grant expenditures. We also
questioned $24,659 of the city’s required matching share of costs that were either not
provided or not supported by adequate documentation. Matching costs are discussed later
in the report. Total questioned costs for the audit are $393,869.


                                            13

                Exhibit 4: Testing of Personnel Expenses

                          Charged to the Grants

                                 Personnel Costs
                                 According to the
               Grant                                    Amount Tested
                                   Accounting
                                     Records
         2007-WS-Q7-0088                $149,086              $13,513
         2007-WS-Q7-0250                $128,660              $16,194
         2008-WS-QX-0219                 $57,173              $17,348
         2008-WS-QX-0221                $132,311              $10,250
         2009-WS-QX-0123                 $25,143               $4,710
         2009-WS-QX-0125                 $47,881               $3,371
         2010-WS-QX-0094                 $16,235               $3,566
              Total                    $556,489              $68,952
      Source: City of Atlanta records and OIG audit tests

     We found that all personnel costs we tested (excluding sub-recipient
personnel costs) were allowable, reasonable, properly charged to the grant,
and supported by time and attendance records or other supporting
documentation.

Administrative Costs

       Beginning with the 2008 Weed and Seed grants, administrative costs
were limited to 10 percent of the award amount. Administrative costs the
city charged to the grants included travel and training costs, payments to a
local university to evaluate and report on the Weed and Seed grant projects,
a projector for use in meetings and training events, telephone expenses,
supplies, food related items, and accounting services. For the 2008, 2009,
and 2010 Weed and Seed grants, administrative costs did not exceed 10
percent of the award amounts.

Unallowable Other Direct Costs

      We tested $469,800 in other direct costs (294 transactions) and found
that $117,306 of these expenditures were unallowable. As explained in the
details below, $74,181 of the unallowable expenditures occurred during the
last month of the grants ($31,847, $15,374, $12,300, $11,660, and
$3,000).

       $31,847 to a local district attorney’s office – For Grant Number
2007-WS-Q7-0088, the city made four payments of $7,961.70 each to a
local district attorney’s office for “Teen Court” sessions. The four invoices
are dated June 25, 26, 27, and 28, 2009. The grant ended June 30, 2009.
We asked the city to provide copies of any agenda for the teen court


                                          14

sessions and sign-in logs for persons who attended the sessions, but none of
those documents were provided to us. We question the $31,847 as
unallowable because the expenditures were not in the grant budget
approved by OJP.

       $15,374 to work on the Weed and Seed grant application – For Grant
Number 2007-WS-Q7-0088, the city paid $7,687 to a former city official and
another $7,687 to a consulting agency to work on a Weed and Seed grant
application. The grant ended June 30, 2009. The invoice for the former city
official is dated June 28, 2009, and the invoice from the consultant is dated
June 30, 2009. The invoices did not include the hourly consulting rates or
hours worked. According to OMB Circular A-87, costs of preparing proposals
for potential federal awards are allowable if they were approved in advance
by the federal awarding agency. We question the $15,374 as unallowable
because these costs were not in the grant budget approved by OJP.

      $12,300 to lease space for community organizers – For Grant Number
2007-WS-Q7-0250, the city paid $12,300 in advance to lease space for
neighborhood coordinators and community organizers. The city entered into
the lease agreement on June 22, 2009. The grant ended June 30, 2009.
The 1-year lease period began July 1, 2009, which was after the grant
ended. The $12,300 expenditure is unallowable because the grant ended
before the lease start date. The expenditure is also unallowable because
rent expense was not in the grant budget approved by OJP.

       $11,660 billing error – For Grant Number 2009-WS-QX-0123, the city
paid $12,885 for 40 persons to participate in a local leadership summit.
However, the invoice from the community foundation states that the unit
cost per person was $30.63. Consequently, the correct billing amount
should have been $1,225.20 (40 x $30.63). The city appears to have
overpaid the foundation $11,660 ($12,885 minus $1,225). We asked the
city to explain this error, but we never received a response. Failure to
identify billing errors demonstrates that the city did not adequately review
grant expenditures before payment. We question the $11,660 overpayment
as unallowable. The invoice is dated September 30, 2011. The grant also
ended September 30, 2011.

       $3,000 to publish newsletters – For Grant Number 2007-WS-Q7-0250,
the city made a $3,000 advance payment to publish a bi-monthly newsletter
for a period of 2 years. The start date of the written agreement to publish
the newsletters was June 9, 2009, but the grant ended 21 days later on
June 30, 2009. The expenditure is unallowable because it was for goods or
services to be provided after the grant ended.



                                     15

       $18,000 for salaries for “volunteers” – The Internal Revenue Service
(IRS), in coordination with a local workforce agency, has a Volunteer Income
Tax Assistance (VITA) program designed to provide free income tax
assistance to qualifying individuals. IRS-trained volunteers provide the
services. For Grant Number 2008-WS-QX-0219, the city reimbursed the
workforce agency $8,000 from grant funds for salaries for VITA program
“volunteers.” However, according to the grant budget approved by OJP, the
$8,000 was to be provided from city funds as part of its matching share of
grant costs. In addition, the matching funds were to be used for a VITA
Center Coordinator. However, the invoices the city provided for the $8,000
were from four volunteers and the invoices stated that the payments were
for “tax preparation services.” For Grant Number 2009-WS-QX-0123, the
city reimbursed the local workforce agency $10,000 for VITA program
volunteers time. However, according to the grant budget approved by OJP,
the $10,000 was to be provided from city funds as part of its matching share
of grant costs. We question the $18,000 as unallowable because those costs
were to be paid from city funds as part of its matching share of grant costs.

       $7,904 in duplicate payments – For Grant Number 2010-WS-QX-0094,
the city paid a $7,300 invoice twice. Both payments were for invoice
number “021” dated January 1, 2012, but on the duplicate payment, the city
used the date “10112” as the invoice number in their general ledger. For
Grant Number 2009-WS-QX-0125, the city paid a $604 invoice twice. The
payments were for invoice numbers “529271631001” and “529271631001
10” and both transactions were dated August 11, 2010.
We question the $7,904 in duplicate payments as unallowable.

      $5,393 for food and catering – The city charged $5,393 in unallowable
costs to the grants for food, beverages, and catering, including $2,627 for
Weed and Seed Steering Committee meetings. One charge for food for
$1,226 was for a committee “retreat.” The expenditures are unallowable
because they do not meet the requirements of OJP’s Food and Beverage
Policy described previously in this report.

       $3,101 for promotional items – For Grant Number 2007-WS-Q7-0088,
the city spent $6,101 on promotional items for National Night Out and other
community events. However, grantees are limited to $3,000 per year for
such expenditures. The city recorded these expenditures as Telephone
Expense ($3,981), Auto Allowance ($1,147) Catering ($647 and $64), and
Non-Consumable Supplies ($263), which made all of these expenses appear
allowable. However, we question as unallowable the $3,101 that exceeded
the $3,000 annual limit.




                                     16

      $1,955 for a construction project at the Mayor’s Office of Weed and
Seed – For Grant Number 2008-WS-QX-0219, the city spent $1,955 for an
expenditure described on the invoice as an “intercom/access control system
at the Mayor’s Office of Weed and Seed”, which administers the Weed and
Seed grants. 9 The city recorded this in its accounting records as
Consumable Supplies expense. We consider this a construction/renovation
project. These costs are unallowable because, according to the FY 2008
award solicitation, Weed and Seed grant funds may not be used for
“construction, renovations, demolitions, repairs of any kind, or related
materials.”

      $1,612 in credit card charges – For Grant Number 2007-WS-Q7-0250,
the Weed and Seed Director’s credit card statement showed a charge of
$4,925 for a deposit for hotel rooms for a youth camp. The city charged this
amount to the grant. However, the credit card statement also shows a
$1,612 credit from the hotel. The Weed and Seed Director told us the
original hotel bills are missing and the hotel is unable to provide duplicate
receipts. The accounting records for the grant do not appear to include a
credit for $1,612 therefore, we question $1,612 as unallowable because the
funds were reimbursed by the hotel but not reversed in the accounting
records.

      $1,125 excess consultant fees – For Grant Number 2009-WS-QX­
0125, the city paid a consultant $150 per hour for 12 hours of work.
According to the OJP Financial Guide, consultant fees are limited to $56.25
per hour. We question the $1,125 difference as unallowable [($150 minus
$56.25) x 12 hours].

      $1,000 paid to a local civic league – For Grant Number 2008-WS-QX­
0221, the city charged $1,000 to the grant for the cost of 50 persons to
attend a neighborhood summit. This expenditure is unallowable because the
neighborhood summit was not one of the events outlined in the grant budget
approved by OJP.




       9
           In its response to the draft report, the City of Atlanta stated that this item was
incorrectly described in our draft report as a construction project in the Mayor’s Office. The
city stated that this expenditure was for the installation of a door bell for an administrative
office, which it considers to be an allowable expense. However, the grant was not approved
for this type of cost and the invoice stated that the expense was for “intercom/access
control system at the Mayor’s Office of Weed and Seed” We clarified that in this final
report.


                                              17

      $960 for supplies for the IRS VITA program – For Grant Number
2007-WS-Q7-0088, the city charged $960 to the grant for supplies for the
IRS VITA program. The grant budget approved by OJP did not include
supplies for the VITA program.

      $917 for police cell phone expenses – For Grant Number 2007-WS-Q7­
0250, the city charged $917 to the grant for police cell phone expenses, but
this expense was not in the grant budget approved by OJP.

       $699 for a digital camera – For Grant Number 2009-WS-QX-0125, the
city charged $699 to the grant for a digital camera and accessories. The
purchase was recorded as “supplies for the upcoming Steering Committee
meeting.” The digital camera purchase is unallowable because it was not in
the grant budget approved by OJP.

     $276 for travel reimbursement – For Grant Number 2008-WS-QX­
0221, the city charged $1,968 to the grant for travel expenses, but only
$1,162 of that amount was allowable based on the federal hotel and per
diem rates leaving a difference of $806. We question $276 of the difference
as unallowable and $530 as unsupported.

       $56 in excess consultant fees – For Grant Number 2009-WS-QX-0123,
the city charged the grant $225 for 3 hours of consulting work and OJP limits
consultant fees to $56.25 per hour. We question $56.25 as unallowable
[$225 minus ($56.25 x 3 hours)] because it exceeds the maximum rate
allowed by OJP.

      $49 fee for a late credit card payment – For Grant Number
2007-WS-Q7-0088, the city charged $49 to the grant for a fee for a late
credit card payment. We question the $49 as unallowable because we
consider this an unreasonable cost. Reasonable costs are described in the
report section titled OMB Circular A-87.

      $40 for a personal membership – For Grant Number 2009-WS-QX­
0123, the city charged the grant $40 to renew what appears to be a
personal membership in a warehouse purchase club. The $40 is unallowable
because it appears to be a personal expense and the grant project already
had a club membership in its own name.

      $39 fee for a returned payment – For Grant Number 2008-WS-QX­
0219, the city charged a $39 return payment fee to the grant. We question
the $39 as unallowable because we consider this to be an unreasonable cost.
Reasonable costs are described in the report section titled OMB Circular
A-87.


                                     18

      Details of these unallowable other direct costs are presented in
Appendix 3. These unallowable costs occurred because the city:
(1) accepted inadequate documentation as support for grant expenditures,
(2) did not adequately review the documentation provided, (3) made
advance payments to contractors and other sub-recipients, but did not
account for how all the funds were spent or ensure the city received the
good and services that were paid for, and (4) did not ensure that grant
expenditures were in the grant budgets approved by OJP.

Unallowable “Service Grants” Expenses

      During our testing of the city’s compliance with the grant budgets
approved by OJP, we noted that the city charged $338,790 in grant
expenditures to its “Service Grants” expense category. However, this was
not an approved expense category and we question the $338,790 as
unallowable. This is discussed in more detail in the Budget Management and
Control section of the report.

Unsupported Costs

      Federal Regulations 28 C.F.R. Section 66.20(B)(6) requires that
grantee and sub-grantee accounting records be supported by source
documentation such as cancelled checks, paid bills, payrolls, time and
attendance records, and contract and sub-grant award documents. In
addition, the OJP Financial Guide, Part III, Chapter 12, states that all
financial records, supporting documents, statistical records, and all other
records pertaining to the award must be retained for at least 3 years after
closure of the grant or at least 3 years after closure of the audit report
covering the entire award period, whichever is later. Retention is required
for purposes of federal examination and audit.

     OJP closed Grant Number 2007-WS-Q7-0088 on November 19, 2009.
Based on the grant closure date, the city had to retain the records until
November 19, 2012.

      Findings related to the city’s FY 2009 Single Audit were not reported in
the FY 2011 Single Audit, which led us to conclude that corrective action for
findings in the FY 2009 audit report were completed during FY 2011.




                                     19

The city’s Single Audit for that year also covered the end of the award period
for Grant Number 2007-WS-Q7-0088.10 Therefore, the city had to retain the
records at least until July 1, 2013. Because we began the audit in
September 2011, the city was required to retain all grant related
documentation for the duration of the audit.

      In the draft audit report we noted that $62,594 of the $469,800 in
other direct costs we tested was not supported by adequate documentation
such as detailed original invoices, contracts, purchase orders, time and
attendance records, public notices, meeting agendas, sign-in logs for grant-
related events, or other documentation. Along with its response to the draft
report the city provided documentation to support $32,757 of this amount.
These documents were not provided to us prior to the issuance of our draft
report. Based on that documentation we have adjusted the reported
questioned costs and question the remaining $29,837. Details of the
remaining questioned costs are provided in Appendix 4 of this report.

Budget Management and Control

      According to the OJP Financial Guide, Part III, Chapter 5, grantees
may request a modification to their approved budgets to reallocate dollar
amounts among approved budget categories. Grantees must obtain
approval from OJP whenever: (1) a budget revision changes the scope of
the project and affects a cost category that was not included in the original
budget, or (2) cumulative transfers among approved budget categories
exceed or are expected to exceed 10 percent of the total approved budget
(10 percent rule). Failure to adequately control grant budgets could lead to
wasteful or inefficient spending of government funds.

      We sought to compare the city’s grant expenditures to the budget
categories approved by OJP, but the city charged over 60 percent of the
grant expenditures we tested to the “Service Grants” expense category.
Because “Service Grants” was not one of the budget categories approved by
OJP, we could not test whether the city complied with the approved grant
budget unless we recreated the city’s accounting records, which we did not
do. Total Weed and Seed grant expenditures recorded in the city’s
accounting records as “Service Grants” expense are shown in Exhibit 5.



       10
          Finding “09-18” identified in the FY 2009 Single Audit (July 1, 2008, through June
30, 2009), was carried over in the FY 2010 Single Audit as finding 10-9 (July 1, 2009,
through June 30, 2010), but was not listed in the FY 2011 Single Audit. We concluded that
the FY 2009 Single Audit report was closed sometime during FY 2011 (July 1, 2010, through
June 30, 2011), but we could not determine the exact date of closure.


                                            20

                  Exhibit 5: Grant Expenditures Recorded as
                          “Service Grants” Expense 11
                                                             Expenditures
                                           Total Grant       Recorded as
                  Grant Number
                                          Expenditures         “Service
                                                               Grants”
             2007-WS-Q7-0088                     $195,671             $87,990
             2007-WS-Q7-0250                     $170,281             $72,720
             2008-WS-QX-0219                     $149,294             $53,582
             2008-WS-QX-0221                     $111,811             $25,666
             2009-WS-QX-0123                     $141,878             $42,296
             2009-WS-QX-0125                     $141,939             $12,862
             2010-WS-QX-0094                     $157,000             $43,672
             Totals                           $1,067,875            $338,790
            Source: OJP and City of Atlanta records

       We question the $338,790 as unallowable because “Service Grants”
expense was not in the grant budgets approved by OJP. We recommend
that OJP remedy the $338,790. We also recommend that OJP ensure the
city records grant expenditures based on the budget categories approved by
OJP.

      We noted that each “Service Grants” transaction generally consisted of
multiple types of expenses. One example of a “Service Grants” transaction
is shown in Exhibit 6.

                      Exhibit 6: Various Costs Recorded as

                       One “Service Grants” Transaction

   Grant                                         Grant          Expense         Questioned
                       Type of Cost
  Number                                       Funds Paid       Category          Costs?
               Web Hosting –
                                                  $1,031     Service Grants        Yes
               Network Installation
               Neighborhood Coordinator
                                                  $5,000     Service Grants        No
               Salary (July – August)
 2008-WS­      Catering/Refreshments
                                                   $472      Service Grants        Yes
  QX-0221      (Ribbon Cutting Event)
               Printing Cost
                                                   $600      Service Grants        Yes
               (Ribbon Cutting Event)
               Computer                            $598      Service Grants        Yes
               Copier/Fax/Printer                  $500      Service Grants        Yes
Total Amount of Transaction                      $8,201 12
Source: City of Atlanta records

      11
           “Service Grants” was not one of the grant budget categories approved by OJP.
      12
         The amount charged to the grant was $8,198, but the details that made up this
amount total $8,201.



                                            21
      We tested all $338,790 of these unallowable Service Grants expenses
and found that $116,723 was also unallowable for other reasons or was not
supported by adequate documentation.

Matching Costs

      According to the OJP Financial Guide, Part III, Chapter 3, matching
funds for a grant project must be in addition to funds that would otherwise
be available. Grant recipients must maintain accounting records that show
the source, amount, and timing of all matching contributions. Matching
contributions may include cash spent for project-related costs or non-cash
match such as donated services or equipment. The full matching share of
costs must be obligated by the end of the award period. Any matching costs
not provided by the grantee must be paid to the DOJ. For the Weed and
Seed grants we audited, the city had to provide 25 percent of the total
project costs.

       We compared the OJP required matching contributions to reported
matching contributions recorded in the city’s accounting records. We also
tested whether the matching cost transactions were supported by adequate
documentation. In our draft report we noted that the city did not provide, or
could not show that it had provided, $57,588 in grant matching costs for
5 of the 7 grants we audited. Along with its response to the draft report, the
city provided accounting records and other documentation to support
$33,679 of this amount. These documents were not provided to us prior to
the issuance of our draft report. Based on the documents, we have adjusted
the reported questioned costs and question the remaining $24,659. A
summary of our analysis of matching contributions is shown in Exhibit 7.




                                     22

                  Exhibit 7: Analysis of Matching Contributions
                            for Weed and Seed Grants
                                                                                  Amount Not
                                    Match Per
                      Required                       Amount       Amount         Supported by
 Grant Number                       Accounting
                      Match 13                       Tested      Supported         Adequate
                                     Records
                                                                                Documentation
2007-WS-Q7-0088          $65,224       $149,086       $11,017      $11,017                 $0
2007-WS-Q7-0250          $56,760       $128,660       $15,508      $15,508                 $0
2008-WS-QX-0219          $49,765        $84,385       $24,975      $24,235               $740
2008-WS-QX-0221          $37,270       $149,999       $25,451       $9,367            $16,084
2009-WS-QX-0123          $47,293        $47,294       $13,572       $6,487             $7,085
2009-WS-QX-0125          $47,313        $74,733       $30,211     $ 29,461               $750
2010-WS-QX-0094          $52,333        $71,952       $12,339      $12,339                 $0
Totals                 $355,958       $706,109 $133,072         $108,413             $24,659
   Source: City of Atlanta accounting records and OJP records

       Details of the remaining $24,659 in questioned costs are presented in
  Appendix 5.

  Property Management

         According to the OJP Financial Guide, Part III, Chapter 6, grant
  recipients must be prudent in the acquisition and management of property
  bought with federal funds. Property acquired with federal funds should be
  used for the purposes stated in the grant programs and applications, and the
  property records should indicate that the property was purchased with
  federal funds. At a minimum, the grantee’s system for managing property
  records should include detailed property records including property
  identification information, a process to conduct a physical inventory every
  2 years, and an inventory control system.

         According to city finance officials, property items with a value of less
  than $5,000 are not classified as accountable property items and are not
  included in the city’s property tracking system. The Weed and Seed Director
  told us she kept invoices of all property items bought with grant funds, but
  noted that none of the items purchased for the Weed and Seed program
  exceeded the $5,000 city requirement, therefore she did not keep a detailed
  inventory of the items. She also said that she had not purchased any
  accountable property items with funds from the specific grants we audited.
  However, during our review of the city’s invoices, we identified and compiled
  a list of 13 property items with a total value of $10,905 bought with grant

         13
            We calculated the city’s required matching share of costs as follows:
  [(Total Grant Drawdowns divided by 75 percent) times 25 percent].



                                               23

funds. Nine items valued at $9,499 were transferred to the police
department. We tested 10 of the 13 items we identified and all were
accounted for.

Grant Reports

Financial Reports

      OJP monitors the financial aspects of grants through quarterly financial
reports that show the federal and local share of grant expenditures,
unexpended grant funds, and any program related income. According to the
OJP Financial Guide, quarterly Financial Status Reports (FSRs) were due 45
days after the end of each quarterly reporting period. Beginning October 1,
2009, the Federal Financial Report (FFR) replaced the FSR. FFRs are due 30
days after the end of each calendar quarter. A final financial report is due
90 days after the end of the grant period.

      We reviewed the four most recently submitted financial reports for
each of the seven grants we audited (28 reports total) to determine whether
the reports were submitted when due. We found that 26 reports were
submitted timely and 2 reports were each submitted 1 day late. We make
no recommendation for the reports that were 1 day late.

       We also reviewed the accuracy of financial reports by comparing the
federal share of expenditures reported to OJP to the federal expenditures
recorded in the city’s accounting records. We found that the city did not
record expenditures using a quarterly system. Instead, the city calculated
quarterly expenses as cumulative expenses through the current quarter
minus cumulative expenses through the previous quarter. Grant
expenditures reported on 21 of 28 financial reports we tested generally
matched the sum of grant expenditures plus “adjustments” recorded in the
city’s accounting records. However, we could not verify the source or
accuracy of the accounting adjustments. Consequently, we could not
determine whether the 21 financial reports were accurate. For the
remaining seven financial reports, which were the final reports for each of
the grants, reported expenditures matched the city’s accounting records.
Because the final financial report for each grant matched the city’s
accounting records, we make no recommendation regarding the accuracy
of financial reports.




                                     24

Progress Reports

      OJP monitors grant performance and accomplishments through
Categorical Assistance Progress Reports (Progress Reports) submitted by
grantees. Progress Reports are due semiannually on January 30 and
July 30. Grantees are required to submit a final grant Progress Report
within 90 days after the end of the grant award period. Progress Reports
must include a comparison of goals to actual accomplishments for the
reporting period, reasons goals are not on track, and a corrective action plan
to resolve the problem. Absent timely, complete, and accurate Progress
Reports, OJP cannot effectively monitor progress toward meeting grant
objectives. We reviewed the 22 grant progress reports to determine
whether the reports were submitted when due. 14 One of the 22 reports we
reviewed was submitted 2 days late. Because we consider 2 days late to be
immaterial, we make no recommendation regarding the timeliness of
progress reports. We also tested whether progress reports were accurate.
We selected 10 facts reported in Progress Reports, traced them to
supporting documentation, and determined that the Progress Reports were
generally accurate.

Grant Goals and Accomplishments

      Grant goals and accomplishments should be based on measureable
outcomes rather than on counting activities. The Government Performance
and Results Act provides a framework for setting goals, measuring progress,
and using data to improve performance. Grantees should establish a
baseline measure and a system for collecting and analyzing data needed to
measure progress.

       We reviewed the grant applications and selected a judgmental sample
of 31 grant goals, objectives, or outcome measures to determine whether
the city had successfully implemented its grant programs. We traced these
to documentation provided by the city’s Weed and Seed Director.

     For the grants we audited, we found that the city achieved 22
(71 percent) of the 31 grant goals, objectives, or other outcome measures
we tested. Exhibits 8 through 12 show the results of our testing.




       14
          We reviewed three progress reports for each of the two 2007 grants (six reports),
three progress reports for each of the two 2009 grants (six reports), four progress reports
for each of the two 2008 grants (eight reports), and two progress reports for the 2010
grant.


                                            25

                Exhibit 8: Grant Goals and Accomplishments

                     Grant Number 2008-WS-QX-0219

      Goal, Objective, or                     Was the goal accomplished?
      Outcome Measure                                Explanation
Make the community safe by             Yes. We reviewed documentation showing a 5
reducing part 1 crimes by 5            percent reduction in part 1 crimes.
percent annually.
Improve the image of the               Yes. The Weed and Seed Director provided
community by encouraging               photographs of community activities that
stakeholders to work together to       encouraged stakeholders to work together.
create a safer environment.
Conduct law enforcement sports         Yes. The Weed and Seed Director provided an
camp.                                  itinerary and participant application forms for a
                                       police department summer golf camp.
Conduct crime perception surveys.      Yes. The Weed and Seed Director provided a
                                       copy of the crime perception survey.
Train residents as health              Yes. The Weed and Seed Director provided
ambassadors.                           quarterly reports showing the accomplishments
                                       and outcomes for training residents as health
                                       ambassadors.
Establish a community technology       Yes. We visually inspected the city’s cybercafé.
center.
Rehabilitate dilapidated properties.   Could Not Determine. The Weed and Seed
                                       Director provided documentation showing the
                                       city had a plan to meet this goal and
                                       photographs of some of the properties. The city
                                       provided no documentation showing any
                                       properties had been rehabilitated.
Source: City of Atlanta records

                Exhibit 9: Grant Goals and Accomplishments
                     Grant Number 2008-WS-QX-0221
      Goal, Objective, or                     Was the goal accomplished?
      Outcome Measure                                Explanation
Reduce overall crime by 5 percent      Yes. We reviewed documentation showing a 5
per year.                              percent reduction in crime.
Conduct resident public safety         Yes. The Weed and Seed Director provided
meetings.                              meeting agendas and sign-in sheets.
Place “keep students in school”        Yes. The Weed and Seed Director provided
decals in neighborhood businesses.     pictures of the “keep students in school” decal
                                       placed in neighborhood businesses.
Implement youth mentoring              Yes. The Weed and Seed Director provided a
summer and afterschool programs.       photograph of a Team Building camp.
Decrease the number of                 Could Not Determine. The Weed and Seed
dilapidated structures in the          Director provided documentation showing the
community.                             city had a plan to meet this goal and
                                       photographs of some of the properties, but
                                       provided no documentation showing a decrease
                                       in the number of dilapidated structures.
Source: City of Atlanta records



                                              26
                Exhibit 10: Grant Goals and Accomplishments

                      Grant Number 2009-WS-QX-0123

      Goal, Objective, or                     Was the goal accomplished?
      Outcome Measure                                Explanation
Make the community safe by              Yes. We reviewed documentation showing
reducing aggravated assaults and        robberies and aggravated assaults decreased by
robberies by 25 percent. Maintain       over 30 percent.
for 5 years.
Educate residents on local truancy      Could Not Determine. The Weed and Seed
and curfew laws and code                Director did not provide documentation showing
enforcement mandates.                   the city educated residents on truancy and
                                        curfew laws or code enforcement mandates.
Conduct household safety                No. The Weed and Seed Director’s told us that
inspections focusing on seniors.        this activity was not implemented.
Establish a youth sports league.        Yes. The Weed and Seed Director provided
                                        documentation showing the city established a
                                        Youth Fitness and Sports Alliance.
Establish an adult literacy program     No. According to the Weed and Seed Director,
that focuses on basic reading skills.   a similar program already existed and
                                        leveraging resources is a component of Weed
                                        and Seed. Consequently, this was not
                                        accomplished by the Weed and Seed grants.
Create an adopt-a-lot program.          No. According to the Weed and Seed Director,
                                        this was not one of the goals of this grant.
                                        However, we obtained this goal from the city’s
                                        grant application. The Weed and Seed Director
                                        provided evidence of a program to save Atlanta
                                        parks, along with a photograph of a small park.
                                        However, we do not consider this to be an
                                        adopt-a-lot program.
Establish a handyman program for        No. According to the Weed and Seed Director,
seniors needing minor home              this was not one of the goals of this grant. The
repairs.                                Weed and Seed Director told us this was
                                        implemented through the city senior housing
                                        program where resources were available.
                                        Consequently, this was not accomplished by the
                                        Weed and Seed grants.
Source: City of Atlanta records




                                               27

                Exhibit 11: Grant Goals and Accomplishments

                      Grant Number 2009-WS-QX-0125

      Goal, Objective, or                  Was the goal accomplished?
      Outcome Measure                             Explanation
Reduce overall crime by 5 percent    Yes. We reviewed documentation showing a 5
per year.                            percent reduction in crime.
Conduct public safety meetings.      Yes. The Weed and Seed Director provided
                                     documentation such as sign-in sheets and public
                                     safety meeting event calendars.
Recruiting parents and volunteers    No. The Weed and Seed Director provided a
for parent patrol.                   copy of a Parent Patrol handbook, but told us
                                     that the city was not able to engage enough
                                     parents to implement the patrol.
Marketing job fairs and              Yes. The Weed and Seed Director provided job
employment opportunities.            fair announcements showing job fairs and
                                     employment opportunities.
Facilitate a leadership camp.        Yes. The Weed and Seed Director provided a
                                     copy of the leadership camp program
                                     description and closing ceremony agenda.
Decrease the number of               Could Not Determine. The Weed and Seed
dilapidated structures in the        Director provided documentation showing the
community.                           city had a plan to meet this goal and
                                     photographs of some of the properties, but
                                     provided no documentation showing it had
                                     reduced the number of dilapidated properties.
Source: City of Atlanta records

                Exhibit 12: Grant Goals and Accomplishments
                      Grant Number 2010-WS-QX-0094
      Goal, Objective, or                  Was the goal accomplished?
      Outcome Measure                             Explanation
Reduce overall crime by 5 percent    Yes. We reviewed documentation showing a 5
per year.                            percent reduction in crime.
Conduct public safety meetings.      Yes. The Weed and Seed Director provided
                                     documentation showing the dates of the
                                     meetings and who attended.
Recruiting and training additional   Yes. We reviewed a list of residents and
residents and stakeholders.          stakeholders the city recruited and trained.
Team leadership sessions.            Yes. The Weed and Seed Director provided a
                                     program itinerary for a team leadership session.
Marketing job fairs and              Yes. The Weed and Seed Director provided
employment opportunities.            copies of job fair announcements and
                                     employment opportunities.
Decrease the number of               Yes. The Weed and Seed Director provided a
dilapidated structures in the        power point presentation along with supporting
community.                           documentation showing a decrease in the
                                     number of dilapidated structures in the
                                     community.
Source: City of Atlanta records




                                            28
      We believe the city could have achieved more of the grant goals and
objectives we tested had it adequately monitored contractors and sub-
grantees. This is discussed in more detail in the next section of the report.
We recommend that OJP require the city to implement procedures designed
to ensure it meets the goals, objectives, and outcome measures of the
grants.

Monitoring Sub-recipients

      According to the OJP Financial Guide, Part III, Chapter 9, primary
recipients of grant funds are responsible for monitoring sub-recipients to
ensure they fulfill the fiscal and programmatic requirements of the grants.

      According to 28 C.F.R. § 66.40, grantees are responsible for managing
the day-to-day operations of grant and subgrant supported activities to
assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each
program, function, or activity.

      We identified 19 contractors responsible for implementing Weed and
Seed grant activities. 15 We asked the Weed and Seed Director how the city
monitored contractors and sub-grantees, what areas it reviewed, and for
copies of monitoring checklists and site visit reports, but none were provided
to us. The Weed and Seed Director told us she did not have a formal system
for monitoring contractors, did not know it was a requirement of the grants,
and that OJP had not provided specific guidance on how contractor activities
should be documented. In the draft report, we noted that the city did not
monitor and had no procedures for monitoring contractors and other sub-
recipients to ensure they met the fiscal and programmatic requirements of
the grants.

       Along with its response to the draft report, the city provided a copy of
a subgrantee handbook that states each grant project will be subject to a
monitoring visit at least once during the project cycle, but no surprise visits
will be done unless there is evidence of gross mismanagement. This
document was not provided to us prior to the issuance of our draft report.
However, these monitoring procedures are not adequate because the
monitoring visits are to be done only once during the project cycle, which is
too infrequent for the city to ensure that projects stay on track towards the
goals and objectives of the grants.


      15
          According to the 2011 OJP Financial Guide, subawards are also known as
subcontracts or subgrants and are used when the intent is to have another organization
help carry out a portion of the scope of work described in the award application.


                                           29

     Based on the audit results, we recommend that OJP require the city to
implement adequate procedures for monitoring sub-recipients and maintain
documentation of monitoring activities.

Conclusion

       The City of Atlanta complied with some grant reporting requirements,
but we found weaknesses in the areas of internal controls, grant
expenditures, accountable property, matching requirements, grant goals and
accomplishments, and monitoring sub-recipients. Specifically, we found that
the city:

  •	 did not obtain and adequately review supporting documentation before
     paying grant expenses;

  •	 miscategorized expenses, which made them appear allowable;

  •	 did not comply with the grant budgets approved by OJP;

  •	 charged $338,790 in grant expenditures (62.9 percent of the grant
     expenditures we tested) to “Service Grants” expense, which was not
     an approved budget category and is therefore unallowable;

  •	 charged $117,306 in unallowable other direct costs to grants;

  •	 charged $29,837 to the grants for costs that are not supported by
     adequate documentation such as original receipts and invoices,
     timesheets, public announcements, meeting agendas, sign-in logs, or
     other documents;

  •	 did not use $48,125 in grant funds from six grants, including $38,189
     from one grant that was not used because the city failed to meet the
     deadline for requesting reimbursement for the grant expenses;

  •	 did not provide, or could not show that it had provided, $24,659 in
     grant matching costs;

  •	 did not meet or could not show that it met 9 of 31 grant goals,
     accomplishments, or other performance measures we tested; and

  •	 did not monitor and did not have adequate procedures for monitoring
     contractors and other sub-recipients to ensure they met the fiscal and
     programmatic requirements of the grants or were on track to meet



                                    30

      grant goals. The Weed and Seed Director told us she was not aware of
      the monitoring requirement, which is explained in the OJP Financial
      Guide.

      Based on our audit results we make four recommendations to address
dollar-related findings and three recommendations to improve the
management of DOJ grants.

Recommendations

We recommend that OJP:

 1. Ensure the city has implemented and follows procedures to ensure that:
    (1) original invoices and other supporting documents are submitted
    along with any payment requests and reviewed for accuracy before they
    are paid, (2) expenditures submitted for payment have not already been
    paid, (3) expenditures are recorded in the accounting records using the
    correct expense categories and the categories approved in the grant
    budgets, and (4) it reconciles advance payments to the goods and
    services received.

 2. Remedy $338,790 in unallowable costs charged to the grant as “Service
    Grants” expenses, which was not an approved budget category.

 3. (This recommendation was deleted from the final report based on 

    information the city provided in its response to the draft report.)


 4. Remedy $117,306 in unallowable other direct costs.

 5. Remedy $29,837 in grant expenditures that were not supported by

    adequate documentation. 16


 6. Remedy $24,659 in grant matching costs that the city did not provide or
    could not show that it had provided. 17



      16
          In the draft report, we recommended that OJP remedy $62,594 in grant
expenditures that were not supported by adequate documentation. Along with its response
to the draft report, the city provided documentation sufficient to remedy $32,757 of the
$62,594. We updated the report and this recommendation to reflect the new amount.
      17
           In the draft report, we recommended that OJP remedy $57,588 in grant matching
costs that the city did not provide or could not show that it had provided. Along with its
response, the city provided documentation sufficient to remedy $32,929 of the $57,588.
We updated the report and this recommendation to reflect the new amount.


                                           31

7. Ensure the city implements procedures designed to ensure it meets the
   goals, objectives, and outcome measures of the grants.

8. Ensure the city implements adequate procedures for monitoring sub-
   recipients and maintain documentation of monitoring activities.




                                  32

                                                                          Appendix 1

                  Objectives, Scope, and Methodology

      The purpose of the audit was to determine whether the City of Atlanta
used grant funds for costs that were allowable, supported, and in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the
grants; and whether the city met or was on track to meet the goals and
objectives outlined in the grant programs and applications.

       The objectives of the audit were to determine whether the City of
Atlanta complied with essential grant conditions pertaining to: (1) internal
controls, (2) grant drawdowns, (3) grant expenditures, (4) budget
management and control, (5) matching costs, (6) property management,
(7) financial and grant progress reports, (8) grant goals and
accomplishments, and (9) monitoring sub-recipients.

      We conducted our audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

      Our audit scope covered the 2007, 2008, 2009 and 2010 Weed and
Seed grants. We tested compliance with what we consider to be the most
important conditions of the grants. Unless otherwise stated in our report,
the criteria we audit against are contained in the Office of Justice Programs
Financial Guide, Office of Management and Budget Circulars, and specific
grant program guidance. The City of Atlanta was awarded $1,116,000 under
the Weed and Seed program since 2007. We tested $538,754
(50.5 percent) of the $1,067,875 in grant funds expended. 18

      In conducting our audit, we performed sample testing in drawdowns,
grant expenditures, matching costs, property management, and grant goals
and accomplishments. In this effort, we employed a judgmental sampling
design to obtain broad exposure to numerous facets of the grants we
reviewed, such as dollar amounts or expenditure category. We selected
judgmental sample sizes for the testing of each grant. This non-statistical
sample design does not allow extrapolation of the test results to the universe
from which the samples were drawn.

       18
           We tested $68,953 in personnel costs and $469,800 in other direct costs for a
total of $538,754.


                                            33

      In addition, we reviewed the timeliness and accuracy of financial and
grant progress reports and compared performance to grant goals. We did
not assess the reliability of the financial management system as a whole.




                                     34

                                                                          Appendix 2

                  Schedule of Dollar-Related Findings
                     Description                               Amount            Page

Questioned Costs - Unallowable:

Unallowable Other Direct Costs                                   $117,306         14
Unallowable “Service Grants” expenses                            $338,790         19


   Subtotal – Unallowable Costs                                 $456,096


Questioned Costs – Unsupported:

Unsupported/Not Adequately Supported Costs                        $29,837         19
Matching Costs Not Provided/Adequately Supported                  $24,659         21

   Subtotal - Unsupported Costs                                 $ 54,496


Total Questioned Costs 19                                      $ 510,592

   Less Duplication 20                                         (116,723)

TOTAL DOLLAR-RELATED FINDINGS                                  $ 393,869
Source: OIG audit test results




       19
          Questioned costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable.
       20
           We questioned $338,790 charged to the grants as “Service Grants” expenses
because Service Grants was not one of the grant budget categories approved by OJP.
However, Service Grants expenditures included $116,723 that we also questioned as
unallowable for other reasons or were not supported by adequate documentation such as
original receipts, invoices, timesheets, and other documentation.




                                            35

                                                                           Appendix 3

                Details of Unallowable Other Direct Costs21
            Transaction                  Amount
                                                                Purpose           Notes
  Date       Number       Amount       Unallowable

Grant Number 2007-WS-Q7-0088
                                                           Promotional and
                                                           Marketing expense
 8/3/08      4062837          $63.67              $63.67   (engraving plaques)      (1)
                                                           Recorded as
                                                           Catering Expense.
                                                           Fee for late credit
 8/3/08      4062837          $49.00              $49.00                          (5)(12)
                                                           card payment.
                                                           Promotion and
                                                           Marketing expense
10/30/08     4822448        $262.50            $262.50     (t-shirts) recorded      (1)
                                                           as Non-consumable
                                                           supplies.
                                                           Lunch at community
 4/3/09      6206948          $31.50              $31.50                          (3)(13)
                                                           safety meeting.
                                                           Promotional and
                                                           Marketing expense
                                                           (award ribbons and
 5/7/09      6994462        $646.80            $646.80                              (1)
                                                           stick-on tattoos)
                                                           recorded as Catering
                                                           Expense
                                                           Promotional and
                                                           Marketing expense
                                                           (backpacks)
                                                           recorded as
 5/29/09     6999862      $3,980.92            $980.92     Telephone Expense.       (1)
                                                           Promotional
                                                           expenses in excess
                                                           of $3,000 per year
                                                           are unallowable.
                                                           Promotional and
                                                           Marketing expense
 5/29/09     6999862      $1,147.00          $1,147.00     for backpacks            (1)
                                                           recorded as Auto
                                                           Allowance.
 6/1/09      7700731      $7,961.70          $7,961.70     Teen Court session.      (2)
 6/1/09      7700731      $7,961.70          $7,961.70     Teen Court session.      (2)

       21
           Because the city changed accounting systems in 2008, the titles of some
accounting fields changed from the prior system. Transaction Date is from the accounting
field “Expenditure Item Date” or “Transaction Date”. Transaction Number is from the
accounting field labeled “Original Transaction Reference” or “Transaction ID.” Transaction
Amount is from “Burdened Cost Amount” or “Transaction Total Claimed” when the
transaction consisted of multiple expenses.


                                            36

 6/1/09    7700731     $7,961.70    $7,961.70      Teen Court session.       (2)
 6/1/09    7700731     $7,961.70    $7,961.70      Teen Court session.       (2)
                                                   Consulting fees for
 6/1/09    7700731     $7,687.00    $7,687.00      preparing grant         (2)(12)
                                                   application.
                                                   Consulting fees for
 6/1/09    7700731     $7,687.00    $7,687.00      preparing grant         (2)(12)
                                                   application.
                                                   Supplies for the IRS’
 3/9/09    6144759      $960.15       $960.15                                (9)
                                                   VITA program.
                       Subtotal    $51,362.34
Grant Number 2007-WS-Q7-0250
                                                   Rent Expense for 1
             Not
5/26/09               $16,997.28   $12,300.00      year after the grant    (2)(11)
           provided
                                                   ended.
                                                   Payment to publish
             Not                                   newsletters for 2       (2)(11)
5/26/09               $16,997.28    $3,000.00
           provided                                years after the grant    (12)
                                                   ended.
                                                   $1,611.77 credit
             Not                                   from hotel was not
 8/3/08                $4,529.45    $1,611.77                              (2)(12)
           provided                                credited back to the
                                                   grant.
                                                   Food expense for a
             Not
9/28/08                 $194.39       $194.39      meeting that began      (3)(13)
           provided
                                                   at noon.
             Not                                   Food for Steering
 6/3/09                $3,624.36      $120.17                              (3)(13)
           provided                                Committee meeting.
                                                   Breakfast for
             Not
 6/3/09                $3,624.36          $41.04   community safety        (3)(13)
           provided
                                                   meeting.
             Not                                   Police cell phone
9/28/08                 $917.03       $917.03                              (2)(12)
           provided                                expenses.
                       Subtotal    $18,184.40
Grant Number 2008-WS-QX-0219

 7/3/09     91474        $39.00           $39.00   Return payment fee.     (2)(12)
                                                   Catering costs for a
11/10/09   114228       $250.00       $250.00                              (3)(13)
                                                   45 minute meeting.
                                                   Construction project
 2/2/10    139404      $1,955.00    $1,955.00                              (8)(12)
                                                   at the Mayor’s office




                                    37

                                                   According to the
                                                   grant budget
                                                   approved by OJP,
                                                   this was to be
5/30/10     160704     $8,000.00    $8,000.00                                (9)
                                                   provided from city
                                                   funds as part of its
                                                   matching share of
                                                   grant costs.
                       Subtotal    $10,244.00
Grant Number 2008-WS-QX-0221
                                                   Hotel and per diem
 6/1/09     89634      $1,967.62      $276.12      costs exceeded the       (10)
                                                   federal rate.
                                                   Cost of 50 persons
                                                   to attend a civic
                                                   league function,
 9/3/09     102009     $1,000.00    $1,000.00                                (2)
                                                   which was not in the
                                                   grant budget
                                                   approved by OJP.
                                                   Food/Catering for
 9/3/09     102010      $122.35       $122.35      Steering Committee      (3)(13)
                                                   meeting.
                                                   Food/Catering for
12/3/09     115442     $1,226.24    $1,226.24      Steering Committee      (3)(13)
                                                   “retreat.”
                                                   Food/Catering for
 4/3/10     149157      $656.96       $656.96                              (3)(13)
                                                   unknown purpose.
                       Subtotal     $3,281.67
Grant Number 2009-WS-QX-0123

08/31/10   12106554   $12,802.30          $56.25   Consulting fees.         (10)

09/30/11   263561     $12,885.00   $11,659.80      Billing error.          (5)(12)
                                                   According to the
                                                   grant budget
                                                   approved by OJP,
                                                   this was to be
08/31/10   245613     $10,000.00   $10,000.00                                (9)
                                                   provided from city
                                                   funds as part of its
                                                   matching share of
                                                   grant costs.
                                                   Catering for 1.5 hour
3/30/11    11701146     $239.81       $239.81                              (3)(13)
                                                   meeting.
                                                   Renewal of personal
                                                   membership in a
6/15/11    12091222     $211.21           $40.00                             (2)
                                                   warehouse purchase
                                                   club.
                       Subtotal    $21,995.86




                                    38

Grant Number 2009-WS-QX-0125

 8/11/10     10818172       $603.54               $603.54   Duplicate payment.       (5)(12)

 8/27/10     10775195       $698.97               $698.97   Camera.                    (2)
                                                            Food for Steering
 9/3/10      10793053       $297.00               $297.00                            (3)(13)
                                                            Committee meeting.
                                                            Consulting fees
11/28/10     11114182     $1,800.00          $1,125.00                                (10)
                                                            ($150 per hour).
                           Subtotal         $2,724.51
Grant Number 2010-WS-QX-0094
                                                            Duplicate payments
 6/8/11      13533474     $7,300.00          $7,300.00      (for various types of    (5)(12)
                                                            costs).
                                                            Catering for Steering
 11/4/11     13139038       $635.25               $635.25   Committee meeting        (3)(13)
                                                            (2.75 hours).
                                                            “Integrity Luncheon”
                                                            to celebrate the first
                                                            anniversary of
 1/31/12     13562479       $531.00               $531.00                            (3)(13)
                                                            opening of
                                                            neighborhood
                                                            resource center.
 2/10/12     13614988       $221.85               $221.85   Catering at noon.        (3)(13)

                                                            Catering for 2-hour
 3/6/12      13727448       $825.00               $825.00   Steering Committee       (3)(13)
                                                            meeting.
                           Subtotal         $9,513.10
    TOTAL UNALLOWABLE COSTS              $117,305.88
Source: OIG analysis of City of Atlanta records

Notes:

   1.	    Exceeds the maximum allowable amount permitted by the Weed and Seed
          program – $3,000 annually for promotion and marketing expense; $2,500
          annually for National Night Out and other similar community events; or,
          beginning with the 2008 grants, 10 percent of the award amount for
          administrative costs.

   2.	    Not in the grant budget approved by OJP.

   3.	    Food expenditure did not meet OJP’s Food and Beverage Policy described in
          the Grant Expenditures section of the report.

   4.	    Amount or type of expenditure is unreasonable.



                                            39

5.	   Unallowable for other reasons.

6.	   No original invoices or other supporting documentation were provided.

7.	   Advance payments for goods and services are generally prohibited
      by 31 U.S.C. 3324.

8.	   Weed and Seed grant funds may not be spent for construction projects.

9.	   According to the grant budget approved by OJP, these costs were to be
      provided by the city as part of its matching share of grant costs.

10.	 Exceeded the maximum allowable federal rate or amount.

11.	 Expenditure was for goods or services to be provided after the grant end
     date.

12.	 In its response to the draft audit report, the city agreed that this
     expenditure was unallowable.

13.	 This expenditure is part of $5,393 in food and catering costs we identified
     as unallowable. In its response to the draft report, the city agreed these
     costs were unallowable.




                                       40

                                                                      Appendix 4

                       Details of Costs Not Supported
                       By Adequate Documentation 22
             Transaction                  Amount Not
                                          Adequately                  Comments
  Date            ID         Amount        Supported
Grant Number 2007-WS-Q7-0088

3/18/2009      6144759         1,534.75
                                                            Along with its response to the
                 Not                                        draft report, the city provided
9/28/2008                      1,382.16
               available                                    documentation to support these
                 Not                                        costs.
9/28/2008                      1,372.04
               available
                                                            The city provided an invoice for
                                                            “services rendered,” but needs to
5/28/2009      6994462         1,251.10          1,251.10
                                                            provide detailed original receipts
                                                            and invoices.
                                                            The contractor invoice states
                                                            that this was for “reimbursement
                                                            for expenses incurred for Parent
                                                            Patrol,” but the invoice does not
3/10/2009      6144759         1,100.00          1,100.00   provide the details of the
                                                            expenses. The city needs to
                                                            provide detailed original invoices
                                                            showing what these expenses
                                                            were with dates and amounts.
                                                            The contractor invoice states
                                                            that this was for “reimbursement
                                                            for expenses incurred for Parent
                                                            Patrol,” but the invoice does not
3/10/2009      6144759         1,100.00          1,100.00   provide details of the expenses.
                                                            The city needs to provide
                                                            detailed original invoices
                                                            showing what these expenses
                                                            were with dates and amounts.
                                                            Along with its response to the
                 Not                                        draft report the city provided
9/28/2008                        931.55
               available                                    documentation to support these
                                                            costs.




      22
           Because the City changed accounting systems in 2008, the titles of some terms
changed from prior reporting terms used. As a result we had to use what descriptions were
available to us and therefore, Transaction dates are from the accounting record fields
labeled “Expenditure Item Date” or “Transaction Date”. Transaction amounts are from
“Burdened Cost Amount” or “Transaction Total Claimed” and some transaction amounts
consist of multiple expenses. Transaction numbers are from the accounting record field
labeled “Original Transaction Reference” or “Transaction ID”.


                                           41

                                                          The city needs to provide original
                                                          receipts for all expenses related
5/12/2009      6855871          846.92           846.92   to the conference, including hotel
                                                          and airfare and the dates of the
                                                          conference. 23
                                                          The city needs to provide original
5/12/2009      6855871          813.96           813.96   receipts for all expenses related
                                                          to the conference.
                                                          The city needs to provide original
5/05/2009      6855871          738.92           738.92   receipts for all expenses related
                                                          to the conference.
                                                          The city needs to provide original
5/05/2009      6855871          712.04           712.04   receipts for all expenses related
                                                          to the conference.
                                                          The city needs to provide original
5/04/2009      6685318          602.28           602.28   receipts for all expenses related
                                                          to the conference.
                                                          Along with its response to the
                                                          draft report, the city provided
7/25/2008      5254543          457.11
                                                          documentation to support these
                                                          costs.
                                                          Need invoices and receipts for
9/01/2008      4274693          396.75           396.75   hotel and airline ticket to show
                                                          staff attended the training.
                                                          Need invoices and receipts for
3/15/2009      6144759          383.50           383.50   travel along with the agenda for
                                                          the training.
                                                          Along with its response to the
3/04/2009      6144759          350.00
                                                          draft report, the city provided
                                                          documentation to support these
3/17/2009      6144759          263.75
                                                          costs.
                              Subtotal      $7,945.47
Grant Number 2007-WS-Q7-0250
                                                          Along with its response to the
                 Not                                      draft report, the city provided
6/03/2009                       140.00
               available                                  documentation to support these
                                                          costs.
                                                          The $29.97 was for food for a
                                                          law enforcement planning
                                                          meeting. The city needs to
                 Not
6/03/2009                         29.97           29.97   provide a copy of the meeting
               available
                                                          agenda so that we can determine
                                                          whether this was an allowable
                                                          food cost.




      23
         To adequately support the costs of per diem, the city needs to provide
documentation such as a meeting agenda showing the dates and the location of the
conference or training.


                                          42
              Not
6/03/2009                  219.19
            available
              Not
6/03/2009                  209.20
            available
              Not
6/03/2009                  209.20
            available
              Not                                     Along with its response to the
6/03/2009                  219.19
            available                                 draft report, the city provided
              Not                                     documentation to support these
6/03/2009                  209.20
            available                                 costs.
              Not
6/03/2009                  179.20
            available
              Not
6/03/2009                  209.20
            available
              Not
6/03/2009                  181.44
            available
              Not                                     Need detailed invoices showing
4/12/2009                  168.33           168.33
            available                                 the expense was grant related.
                                                      The invoice from the sub-
                                                      recipient provided no details
              Not
3/19/2009                 1,868.46         1,868.46   showing how the funds were
            available
                                                      spent. Need detailed original
                                                      invoices for this expense.
                                                      Invoice provided does not match
              Not                                     the amount or the date of the
9/28/2008                  609.32           609.32
            available                                 expense in the accounting
                                                      records. Need correct invoice.
              Not                                     Need documentation showing
9/28/2008                  477.00           477.00
            available                                 that the trip was grant related.
                                                      Need invoice from hotel and
              Not
9/01/2008                  396.75           396.75    documentation showing how this
            available
                                                      was related to the grant.
                         Subtotal     $3,549.83
Grant Number 2008-WS-QX-0219
                                                      The city provided invoices for
                                                      $16,915.59. The city needs to
8/06/2009    93273      $20,000.00     $3,084.41
                                                      provide original invoices for the
                                                      remaining costs.
                                                      Along with its response to the
                                                      draft report, the city provided
7/17/2009   126976       13,748.90
                                                      documentation to support these
                                                      costs.
                                                      Invoice states that this was for
                                                      consultant work for June 3
                                                      through July 8. The city needs
6/15/2009    91064        4,897.50         4,897.50
                                                      to provide detailed invoices
                                                      showing hours worked and what
                                                      work was accomplished.




                                     43

                                                      No original receipts were
                                                      provided. The city stated that
8/06/2009     93262       1,274.43         1,274.43
                                                      the receipts were missing from
                                                      the file.
7/03/2009     91470        397.70                     Along with its response to the
                                                      draft report, the city provided
7/03/2009     91475        397.70
                                                      documentation to support these
7/03/2009     91468        387.70                     costs.
                                                      This was for afterschool
9/01/2009     115882       200.53           200.53    refreshments. The city stated
                                                      that the receipts were missing.
                         Subtotal     $9,456.87
Grant Number 2008-WS-QX-0221
                                                      The city needs to provide the
                                       $1,031.00      invoice for the web hosting
                                                      network installation.
                                                      The city needs to provide the
                                            472.00    receipt for food for Ribbon
                                                      Cutting.
                                                      The city needs to provide the
6/22/2009     91579      $8,198.00          600.00    receipt for the printing costs for
                                                      Ribbon Cutting.
                                                      The city needs to provide the
                                            598.00    invoice or receipt for the
                                                      computer.
                                                      Need city needs to provide the
                                            500.00    invoice for the copier/fax/printer.
                                                      Total travel cost was $983.81.
                                                      The city needs to provide hotel
 7/5/2009     91259       2,093.17          714.31
                                                      invoice for $684.31 and
                                                      transportation receipt for $30.
                                                      The city needs to provide an
 6/1/2009     89634       1,967.62          529.70    expense report with hotel bills
                                                      for the remaining $529.70.
                         Subtotal     $4,445.01
Grant Number 2009-WS-QX-0123
                                                      Amount charged to the grant for
                                                      food was $160.29. Receipt was
08/31/2010   12106554   $12,802.30          $12.00    for $148.29. The city needs to
                                                      provide support for the
                                                      remaining $12.
                                                      The city needs to provide a copy
                                                      of the contract showing the city
09/30/2011    263563      3,000.00         3,000.00   agreed to pay a $3,000 “TCF
                                                      Administrative Fee” for arranging
                                                      a conference at a resort.
                         Subtotal     $3,012.00




                                     44

Grant Number 2009-WS-QX-0125
11/02/2010   10924945   $1,250.00
11/02/2010   10924945    1,250.00
11/02/2010   10924945    1,250.00                   Along with its response to the
11/02/2010   10924945    1,250.00                   draft report, the city provided
11/02/2010   10924945    1,250.00                   documentation to
11/02/2010   10924945    1,250.00                   support these costs.
11/02/2010   10924945    1,250.00
11/02/2010   10924945      400.00
                         Subtotal          $0.00
Grant Number 2010-WS-QX-0094
                                                    The city needs to provide a
                                                    receipt or other document
                                           $30.00
                                                    explaining the $30 paid to the
                                                    community organizer.
06/08/2011   12596745   $8,125.16
                                                    The city needs to provide a
                                                    receipt or other document
                                           $60.00
                                                    explaining the $60 paid to the
                                                    community organizer.
                                                    $300 paid to community
                                                    organizer “KH” on 12/13/2011.
                                                    Timesheet provided shows only 3
                                          $300.00
                                                    hours worked on December 1.
                                                    Timesheet does not support the
                                                    $300 payment.
                                                    $300 paid to community
                                                    organizer “RC” on 12/13/2011.
06/08/2011   13533474   $7,300.00
                                                    The city provided a timesheet
                                                    showing “RC” worked 17.5 hours
                                                    in January 2011, but worked no
                                          $300.00
                                                    additional hours before the
                                                    12/13/2011 payment. The city
                                                    needs to provide a timesheet
                                                    showing “RC” worked 30 hours
                                                    through 12/13/2011.
                                                    Along with its response to the
                                                    draft report, the city provided an
10/04/2011   12631574    $500.00
                                                    original invoice for this
                                                    expenditure.




                                    45

                                                          The city needs to provide the
                                                $137.65   invoice/receipt for the $137.65
                                                          printer cartridge.
                                                          Along with its response to the
                                                          draft report, the city provided
                                                          the original receipt for $77.94.
06/08/2011    13868229       $7,645.47
                                                          Along with its response to the
                                                          draft report, the city provided
                                                          the original receipt for $29.88.
                                                          The city needs to provide the
                                                $600.00   original invoice/receipt for $600
                                                          for “Calling Posts.”
                              Subtotal      $1,427.65
 TOTAL COSTS NOT SUPPORTED BY
                                             $29,836.83
    ADEQUATE DOCUMENTATION
Source: OIG analysis of City of Atlanta records




                                          46

                                                                  Appendix 5

       Matching Costs Not Provided or Not Supported
               by Adequate Documentation
                                                    Amount Not
                                                    Provided or
                                    Transaction
Grant Number      Transaction                           Not                Explanation
                                      Amount
                                                    Adequately
                                                     Supported
2008-WS-QX­    Trans ID: 184319                                    Along with its response to
    0219       Item Date:                                          the draft report, the city
               1-Jun-10                                            provided additional
                                         $10,924        $740.00
                                                                   documentation for $8,462.
                                                                   The city needs to provide
                                                                   timesheets for payments of
                                                                   $340 and $400.
2008-WS-QX­    Trans ID: 147283                                    The city needs to provide
    0221       Item Date:                 $8,384      $8,383.97    original vendor invoices,
               1-Mar-10                                            timesheets, and payroll
                                                                   records for $8,384.
               Trans ID: 133786                                    This was for salaries for a
               Item Date:                                          neighborhood coordinator
               1-Dec-09                                            for November and December
                                          $7,700      $7,700.00
                                                                   2009. The city already
                                                                   recorded these salaries as a
                                                                   grant expenditure using
                                                                   transaction number 115370.
2009-WS-QX­                                                        The city had to provide
    0123                                                           $47,293 in matching costs,
                                                                   but according to the
                                                                   accounting records, it
                                                                   provided only $33,099. The
               Not Applicable      Not Applicable                  remaining $14,194 in
                                                           $0.00
               (see explanation)   (see                            matching costs was not
                                   explanation)                    provided. Along with its
                                                                   response to the draft report,
                                                                   the city provided accounting
                                                                   records showing it provided
                                                                   an additional $14,194.07 in
                                                                   grant matching costs.
               Project Number:                                     Invoice for $6,000 is for
               4210718                                             “services rendered.” Along
               Item Date:                 $6,000      $6,000.00    with its response to the draft
               27-Aug-10                                           report, the city provided
                                                                   documentation that we could
                                                                   not reconcile to the $6,000.
               Project Number:                                     The city needs to provide
               4210718                                             the original receipts and
                                          $1,085      $1,084.67
               Item Date:                                          invoices for the $1,084.67.
               8-Jun-11




                                       47

                  Project Number:                                        Along with its response to
                  4210718                                                the draft report, the city
                                                   $200          $0.00
                  Item Date:                                             provided and invoice for the
                  8-Jun-11                                               $200.

 2009-WS-QX­      Project Number:                                        Along with its response to
     0125         4210719                     $11,505                    the draft report, the city
                                                                 $0.00   provided documentation to
                  Item Date:                                             support the remaining
                  28-Feb-11                                              $2,500.

                  Project Number:                                        Along with its response to
                  4210719                                                the draft report, the city
                  Item Date:                                             provided documentation to
                  26-May-11
                                                  $5,712       $750.00   support $4,280. The city
                                                                         needs to provide timesheets
                                                                         and payroll records for the
                                                                         remaining $750.

 2010-WS-QX­      Project Number:                                        Along with its response to
     0094         4210928                                                the draft report, the city
                                                  $2,194         $0.00
                  Item Date:                                             provided a timesheet for this
                  1-Sep-11                                               expense.

                  Project Number:                                        Along with its response to
                  4210928                                                the draft report, the city
                                                   $449          $0.00   provided documentation to
                  Item Date:                                             support this expense.
                  23-Nov-11

                  Project Number:                                        Along with its response to
                  4210928                          $650          $0.00   the draft report, the city
                  Item Date:                                             provided documentation to
                  11-Mar-12                                              support this expense.
Totals                                                     $24,658.64
Source: OIG analysis of City of Atlanta records




                                            48

                                                                                                         Appendix 6

          The Office of Justice Program’s Response to
                     the Draft Audit Report
                                                                u.s. Department of Justice
                                                                Office ofJustice Programs

                                                               Office of A udit, Assessment, and Managem ent


                                                               Wash"'Il'''''. D.C. JOJ]I

JlJl - 5 2013


MEMORAN DUM TO :                       Ferris B . Polk
                                       Regional Audit Manager
                                       Atlanta Regional Audit Office
                                       Office ofthc Inspector Gene ml

FROM:                                  Maureen A. Henn~b'ES .
                                       D irector YM~"""""'"
                                                              _ ,_ .. A
                                                                                      a-
SUBJECT:                               Response to thc Draft Audit Report, Audit ofO.ffk:e ofJustice
                                       Progroms Weed and Seed Grants Awarded to the City of Atlanta.
                                       Georgia

This me mof""dndum is in response to your correspondence , dated May 28, 20 13, trans mitting the
subject draft audit report for the C ity of Atlanta, Geo rgia (City). We consider t he s ubject report
re solved and request WTitte n acceptance of th is a ctio n fro m yo u r office.

The draft audit re port contains e ight recommendations and $ 437,416 1 in net questioned costs.
T he fo llowing is the Office of Justice P rograms' (OJP ) analysis o f the draft audit report
recommendations. Fo r ease of review, the recom mendations are reslated in bold and are
followed by our response.

1.         We r ecommend that OJP e nsures that t he C ity has implemented and follow s
           procedures to ensure Ihat: (1) original invoices and oUte r supporting ducuments are
           s ubmitted a long with any payment requests and reviewed for accuracy before they
           are paid, (2) expenditures submitted for payment have not already been paid,
           (3) expenditures are recorded in the acco unting records us ing the correct expense
           categories and the categories approved in the grant hudgets, and (4) it reconciles
           advance pay m c nts t() the goods a nd services received .

           OlP agrees with the recommendation. We will coordinate with the C ity to o btain a cop y
           of policies and procedures implemented to ensure that: (I ) or iginal invoices and other
           su pporting docmnen ts are submitted along with a ny payment req uests, a nd reviewed for
           accuracy before they are paid ; (2) ex penditures subm itted for payment have not a lready
           been paid; ( 3) expenditures arc recorded in the accounting records using the correct



I   Some costs were q uestioned for more than one reason . Net questioned .. OSIS exc lude the dupH .. ale amounts.




                                                            49

     cxpcnse categories and the categorics approved in the g rant bud gcts; and (4)
     reconc ilia tions betwee n adva nce payments a nd the goods and services reccived are
     routine ly performed.

2.   We recommend that O.JP remedy the $338,790 in unallowable costs charged to the
     grant as " Service G rants" expenses, which was 1I0t an approved budget category.

     OJP agrees wi th t he rec o mmendatio n. W e will coordi na te w ith the C ity to re me d y the
     $33 8 ,790 in q uestio ned costs c harged to the City's W eed and Seed g rants as "Service
     G rants" expenses, which was not an approve d budget category. If adequate
     documenta tio n c anno t be provided, we wi11 req uest tha t the C ity return the funds to the
     U .S. Depa rtment of Justice (DO J) , adj ust t hei r accounting records to rem ovc the costs,
     a nd su bmit revised final Federa l Financial Re ports ( F FR) for each grant.

3.   W e re commend that OJP remedy the $69.254 in unallowable e xcess administrative
     costs.

     O JP agrees w ith the recomme ndation. We w ill coordina te wi th the C ity to re m ed y the
     $69,254 in excess a d m inistrative costs. If a dequate doc umentation cann o t be provided,
     w e w ill request that the C ity rcturn the funds to the DO J, adjust thei r acco unting records
     to remo ve the costs, and su bmit revised fina l FFRs fo r cach gra nt.

4.   We recommend that OJP remedy the $ 11 7,306 in unallowable other direct cos ts.

     OJ P agrees w ith t he reco m mendation. We wi ll co o rd inate w ith the City to remedy the
     $ 117,306 in questioned other d irect costs. If adequa te documentation c anno t be
     provide d, we w ill request tha t the C ity retu rn the funds to t he O O J , adjus t their
     accounting records to remove the costs, and submit revised fi nal FFRs fo r each g rant.

5.   We recommend that OJP remedy the $ 62,594 in grant expenditures that were not
     supported by adequate documentation.

     O lP agrees w ith the recomme ndatio n. We will coordinate wi th the C ity to remedy the
     $62,594 in grant e x penditures that were not supported by adequate doc um entatio n. If
     adeq uate docum e ntation cannot be provided, we w ill request that the C ity return the
     funds to the 0 0 1, adj ust the i.r accoun ti ng reco rds to re move the c osts, a nd su bmit revised
     fina l F FRs for e ach g rant.

6.   We recomme nd that OJP remedy the $57,588 in grant matching costs that the C ity
     did not providc or c ould not show that it bad provided.

     O JP agrees w ith the reco mme ndation. We w ill coordi nate with the City to rem ed y the
     $57,588 in grant m atc hi ng c o sts, whic h were not provided or properly documented. fo r
     five of the City' s seven Weed and Seed grants. O nce a fi nal detenninatio n has been
     m a de regardi ng the a llowable Federa l costs for those awa rds, the fina l matc hing amounts
     wi ll be dete rm ined, and the C ity may be requ ired to retum funds to t he OOJ , ifn eccssary.




                                                 50

7.     W e reco mm e nd t hat OJP en s u res th a t t h e C ity im plem en ts procedu res d esig n ed to
       e n s ure it m eeb t h e g oals, objectives, and o utco m e m eas u res o f t h e gran ts.

       OJP agrees wi th the recommendation. We w ill coordinate with the City to obtain a copy
       of policies and procedures implemented to ensure that the goals, objectives, and outcome
       measures of its Federal grants are met in the future.

8.     W e r eco mm e nd that OJP en s ures th a t the C ity imple m e nts p ro cedures t o m o nit or
       s ubrecipie n ts an d m a inta in d o e u.m e nt a ti o n of mon it o rin g acti v it ies.

       OJP agrees with the recommendation. We w ill coordinate with the C ity to obtain a copy
       of policies and procedures implemented to ens ure that subrecipients are properly
       monitored, and docume n tat ion of monitoring activities is maintained for future audi t ing
       purposes.

We appreciate the Opportunity to review and comment on the draft audit report. I f you have any
questions or require addit ional information, please contact Jeffery A. Haley, Deputy Director,
Audit a nd Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy D irector. A u dit and Rev iew Division
       Office of A udit. Assessment, and Management

       Tracey Trautman
       Deputy Director fo r Programs
       Bureau of Justice Assistance

       Eileen Garry
       Deputy D irector
       Bureau of Just ice Assistance

       James Simonson
       Budget Director
       Bureau of Justice Assistance

       Amanda LoCicero
       Audit Liaison
       Bureau of J us tice Assistance

       Barry Roberts
       Grant Progrmn Specialis t
       Bureau of Justice Assistance




                                                 51

cc:   Richard P . Theis
      Assistant Di.rector. Audit Liaison Group
      Intern al Review and E valuation Office
      Justice Management Division

      Marcia L. Wallace
      Director, Office of Operations - Audit Division
      Office of the Inspector Genera l

      O JI) Executive Secretariat
      Control N um ber 20130777




                                            52

                                                                                                       Appendix 7

The City of Atlanta’s Response to the Draft Audit Report




                                           CITY OF ATLANTA
     KASIM REE D                                                                         J. Anthony "Jim" !3<:Iard. CTP
                                            IlEI' Aln M EN T OF FI NANC E                  CIlIU f tlNIClAl ()fFIC~R
       ~'oo
                                    6 6 M ITC H ELL STR E ET. S ,W . SU IT E 111 00          1!!!'~fl!9~~M1Mll   oov
                                         ATL A N TA. G EO RGI A 3 0303·03 12

                                     TE L ( 101) 330 -6 6 H   FA ~ ( ~ O~) 656 - 6~0 6



        June 27, 2013


        Mr. Ferris B. Polk
        Regional Audit Manager
        AIIanta Regional Audit Office
        Office of the Inspector General
        U.s. Departmenl of Juslice
        75 Spring Sireet, Suite 1130
        Atlanta, GA 30323
        Email: Ferris.B.Polk@usdoLgov

        RE:    DEPARTMENT OF JUSTICE CITY OF ATLANTA DRAFT AUDIT REPORT



        Dear Mr. Polk:

        The City of Atlanta (the ' City") appreciates the opportunity to respond to the recommendations
        submitted in the Department of Justice Draft Audit Report (the "Report") resulting from the audit
        conducted by the Office of the Inspector General (the "Audit"). Gront funding is an intcgml port
        of the City's abili ty to deliver services to its conslituents and the City greatly appreciates
        recommendations made rela ted to its grants management process, The Report makes eight
        recommendations to which the City submits the following responses , A summary of the Reports
        unallowable costs and the City's Justification Is Included in the chart on Ihe following page.




                                                         53

   Summary of Questioned Costs

                                                                                                    1




l'h'J~~~~"     .   ;                          $338,790 Service Grants Expenses                          '0
                   i i   h

                                                           ~
           1



                                                                    I;
                                                           ",,,,d, """go;"                   ;
                                                                                                             I
                                                                                                         $1,6 12

                                                                ,       1    •.10
                                                                                                        $1,955 1

                                                          ~","ldbe                                      $10,000


                                                                                    I;

                                                           ~
                                                           ; ;err"

                                     ~
                                                                                         ;


        ,ro," 0011                             $57,588          ;
                                                                    ;
                                                                                1
                                                                                                             $6. .


  1 A cOI'rectlon ~ requested for an Item listed on page 19 of \he Report. The Report states that the $1,955
  was attributable to construction project In the Mayor's OffICe making il unallowable expense, This Item
  was Incorrectly described and the City desires that the item be oorrected to reflect the installation of a
  door bell 101' an administrative office which is an allowable e~pense .




                                                      2




    NOTE: The item the city refers to in this footnote now appears on page 17 of the report.




                                                   54

          Cate or                     OJP Audit           Cit of Atlanta Concurs as Unallowable
       Subtotal                           $120182

Total Questioned Costs                     $645532
       Less Du licati on                  $208116

Total Related to Findin s                 $437416

City of Atlanta Considered                                                                     $74.987
Unallowa ble Costa




  Recommendation 1 : Ensure the city has implemented and follows procedures to ensure that:
  (1) o riginal invoices and other supporting documents are submitted along with any payment
  requests and reviewed for accuracy before they are paid, (2) expenditures submitted for
  payment have not already been paid, (3) expenditures are recorded in the accounting records
  using the correct expense categories and the categories approved in the grant budgets, and (4)
  it reconciles advance payments to the goods and services received.

  City Re s ponse: The C ity's Accounts Payable, along with the Grants Accounting Office has
  implemented procedures to ensure original invoices and supporting documents are provided to
  substantiate payments. These procedures are regularly reviewed as part of the City's extemal
  audit. With respect to duplicate payments, the City has a con tinuous audit process that seeks to
  Identify any duplicate invoice payments . A list of duplicate payments is produced by the City's
  internal auditor and is reviewed quarterly. Vendors are then contacted to return any duplicate
  payments issued , Th e City asserts that expenditures are recorded in the O r acle ERP System
  using correct expense categories. For internal control purposes, expendilures relating to sub­
  recipients are recorded in account 5239004 "Service G ranls" ca tegory. An explanation of the
  City's use of "Service Grant" as a category is provided as part of the City's response to the
  Reporfs Recommendalion 2 . Finally, the City no longer provides advance grant paymenls .




   Re commen dation 2: Remedy $338,790 in unallowable costs charged to the grant as
  "Service Grants" exp e n ses, which was not a n approved budget category.

  City Response : The City disagrees with the $338,790 in unallowable costs stated in the
  Report. It appear s the $338,790 was disallowed because "Service Grants" was not an
  approved budget category, because the specific ca tegory was not presented in the submi tted
  budget. However, the budget was presented in func tional categories such as personnel,
  supplies, consuitanVcontracts, e lc. , detailing where funds would be spent to support grant
  initiatives. Contracts were awarded to sub-recipients after each sub-recipient provided a
  detailed budget by expenditure category. Each sub-recipient reports its aclual expenditures to


                                                  3




                                                  55

the City in detail and as re ferenced in their budgeted category. However, to maintain Internal
conlrols on segregation of the City's day-la-day business operating expenses from sub-r ecipient
grant contracts, sub-recipient grant expenditures are accounted for in account 5239004 ~Service
Grants" in the City's Oracle ERP System. T he system used by the City ensures thai sub­
recipient expenditures and the Cily's day-Io-day operating expenditures do not co-ming le,
without such a system , it would be difficult to review the grant expenditures versus the Cily's
day to day costs in conducting Its regular business. II should be noted that during the Audit ,
supporting documentation for "Service Grants n expenditures ware reviewed and no
expenditures were disa llowed. The City holds that the $33a,790 In Service Grants was
allowable and attributable to approved budgeted cos ts .


R ecommendation 3; Remedy $69,254 in unallowable eXCDSS administrative costs.

City Re sponse; The City disagrees with the $69,254 In unallowable costs stated in the Report
with the exception of the $711 .99 for a p r ojector and $1 , 326 for food costs in excess of the
a uthorized amoun t. The approved budget submitted to Office of Justice Programs ("OJP")
included the $69,254 as direct costs that supported program goals, objeclives and outcome
measures as more particularl y described In E xhibit 1.

Salaries for neighborhood coordinators and community organizers were approved budget items
as listed below, Program assistants attributable to Raising Expectation and Safehaven were
permissible and budgeted expenses charged to account 5239004 "Ser vice Grants" and should
not be considered administrative costs. The approved budget follows ,

2010-WS-QX-0094        Neighborhood Coor dinator      $24,000
                       Community Organizers           $10,000

2009- WS -QX-0125      N eighborhood Coordinator      $24,000
                       Community Organizers           $10,000

2009-WS-QX-022 1       Executive Director!
                       Neighborhood Coordinator       $21 ,000

2007 -WS-QX-0250       Neighborhood Coordinator       $33,380
                       Neighborhood Extra Help        $10,400

The $18,000 payment to the university used to evaluate and report on Weed and Seed grant
projects was included , and approved in the grant b u dget for 2007-WS-Q7-00a8 as consultant
contr acts - Evaluation Consultation Service in the amount of $28,300 . Of the budgeted amount,
$14,000 was for evaluation and consulting services and $ 14 ,300 was for the cost of data
collection, analytical mapping, planning analysis, operation al supplies, results accountability and
logic model trainings , The Weed and Seed Steer ing Committee expressed a strong need for
increased capacity building, accountability and sustainability from residents and r esources were
and are being made available to increase performance and accountability.



                                                 4




                                                56

Recommendation 4: Remedy $117,306 in unallowable o ther direct costs. (Exhibit 2)

City Response: The City disagrees with th e $ 117,306 in u nallowable costs sta ted in the
Report. After review o f the C ity's records , we found thai o nly $6 1 ,036.27 of the $117,306 of
expenditures may be deemed u nallowable as m ore particularly d escribed in Exhibit 2 . Please
note that the U.S. Department o f Justice 2011 Financial Guide (Revised July 2012), page 45,
states that individual consultant rates are to be reasonable and consistent with th at paid for
similar ser vices. T he City feels that the $31,847 paid to the local District A ttorne y's Office for
four Teen Court sessions was consistent with amounts paid for similar services. Alth ough th e
T een Court sessions invoices were dated near th e end of grant year, th e actu al number of
cases heard during th e period August 2008-June 2009 totaled 121. Due to the need for
confidentiality, and the need for sen sitivity and the protection o f Individual teen Identities. a sign
in log and reco rd of participants was not m aintained. The Teen Court sessions were su ccessful
In that assistance was provided for teens in a court se tting outside of the juvenile court system.




R e commendation 5: Rem edy $62,594 in grant expenditures that were not s upported by
adequate documentation .

City Response : The City disagrees tha t $62.594 in grant expenditures were unsupported by
adequate documentation, supporting documentation has been provided in Exhibit 3. M oreover,
the documenta tion In Exhibit 3 supports grant expen ditures to achieve the goals. objectives and
outcome measures of the Weed and Seed grant.




R ecommendation 6 : Remedy $57 ,588 In grant matching costs that the ci t y did not
provide or cou td not show that it had provided .

City Response: The City disagrees that it fai led to provide $57,588 in grant matching costs as
prescribed by the grant. Th e City h as included documentation regarding its matching
obligations in Exhibit 4. The City's Exhibit 4 will substan ti ate the City meeting its matching costs
requ irement, with the exceptio n o f $7,700. Th e $7,700 may be identified as unallowable
because it is a d u p ticate payment whic h was made in error. As previously described in
recommendation 1 , th e Ci ty has a process in place to ident if y duplicate payments going forward .




                                                  5




                                                 57

Recommendation 7: Ensure the city implements procedures designed to ensure it meets
the goals, objectives, and outcome measures of the grants.

City Response : The City provides details regarding goals, objectives and outcome measures
in Exhibit 5.

The City's strategy regarding grant Implementat ion was based on the national two-pronged
approach mOdel where: 1) Law enforcement agencies cooperate with local residents to "weod
out" c riminal activity and 2) Social service providers and economic revitalization efforts to
"seod" the area for long-term positive c hange. A key coordination strategy Included
participation of criminal justice Initiatives with social services and community efforts to maximize
th e impact o f programs and re sources to fill in gaps in services where applicable. Communi ty
residents and s ta k eholders were Involved to assist In targeted neighborhood problem solving .

Th e City validated and verified performance of process outcomes in:
        Reduction in Violent Crime
        Increased Resident Engagement
    •   Increased Community Partnerships

Qualitative and quantitative data indica ti o n included:
       # and types of resident engagement
   •   # and types of meetings
   •   #training and types of training
   •   # and types of special even t s
   •   #Of crim e incidents
   •    Perception of crime
   •    Influence change In neighborhood conditions and behaviors

Direct service, ser vice grants and/or sub-grants were awarded to assist in undertaking certain
aspects wi thin the scope of work.

The City intends to implement procedures designed to ensure goals. objectives, and grant
outcome measures are met, procedures will Include:
   •   Procedure formalization so that procedures may be applied consistently.
       Procedures will be designed to ensure Internal con trol o f funds.
       Development of a system to match financial transactions with program goals. objectives
       and outcomes for auditing pur poses.




                                                 6




                                               58

Recommendation 8: Ensure th e city Implements procedures to monitor sUb-recipients
and maintain documentation o f monitoring activities .

City R esponse: The City maintains th at it monitored and maintained documentation regarding
sub-grantee grant acti vity as required. The monitoring principles applied were as follows:

    •   Service g rants andlor sub-grant awards were awarded to assist in undertaking a part of
        the scope of work described in the strategic plan
    •   The City maintained agreements with sub-grantees which outlined the scope of work
    •   Sub-grantees receive a grant handbook
    •   Sub-grantees submitted progress reports providing information supportive of the master
        s trategic plan

Goin g forwa rd , the City intends to implement standard operating procedures with respect to
monitoring sub-recipients and maintaining documentation of monitoring activities w hich w ill
include the development of procedures as listed as part of the City's response to
Recommendation 7.

In addition, the City intends to implement t he following monitoring procedures:

Monitoring Procedures:
As necessary. on a monthly, semi-annually or annual basis. a monitor review w ill be conducted
on the activities o f sub-recipients to ensure that federal awards are being used for authorized
purposes, in compliance with laws. regulations, and in accordance with the grant agreement.

The Ci ty intends to improve performance based grant agreements between grantees and the
City by implementing a payment request schedule with performance requirements and
performance allotment schedules based on achievement o f speci fi c accomplishments and
outcome data as prescribed by the Performance Standards rather than basing payment on
grantee Incurred costs. F or any deliverable not met and not reported by the due date, the City
shall retain the righ t to Issue a percentage reduction of th e payment associated with the
reporting period to encourage timely reimbursement requests during the entire grant period .

Th e City w ill continue to provide oversight and monitoring so that funds are expended according
to provisions and required regulations , agency administrative requirements , relevant OMB
circulars, and th e terms of award notices for projects' goal and objectives. In addition, the City
will work to achieve:

   •    The development of program monitoring plan based on grant requirements
        Maintain a compliance system that contains sufficient detailed information to accurately
        account for contracts and records pertaining to grant awards, authorizations and
        obligations
   •    Maintain a compliance system that fairly and fully discloses the financial position and
        results of the City's grant opera ti ons
   •    E n sure compliance with legal and contractua l provisions




                                                7




                                                59

      •   Review annual operating results , and other pertinent information to facilitale
          management contrOl of financia l operations, externalllegislatlve oversight, and external
          reporting purposes
          Notify the sub"recipients in writing of noncompliance with g r ant administration and
          accounting policy and procedures
      •   Prepare internal monitoring timelable in a master grant system file and/or
          dashboard/database documenting any finding and corrective actions to be taken

Based on the documentation and explanations provided herein the City believes it may be
responsible for $74 ,987 in unallowable expenses and looks to the U .S . Department of Justice
for guidance on how to remedy same. Again, the City thanks you for allowing us to respond to
the Report.

Respectfully,



                                                     )
J . Anthony Beard , CTP
Chie f Financial Officer
                                                         -
cc:       Honorable Kasim Reed , Mayor
          Duriya Farooqui , Chief Operating Officer
          Candace Byrd , Chief of Staff
          Andrea 800ne, Commissioner, Con stituent Services
          Karen Rogers, Director, Weed and Seed
          John Gaffney, Controller
          Gene Kirschbaum , Director, Financial Reporting & Grants Accounting
          Lee Hannah, Director, Grants Services
          Linda Taylor, Office of Justice Programs




                                                 6




                                                 60

                                               li:xhihit 2

Recommendation 4

Remedy $117,306 in unallowable other direct costs.




  Date                     Amou nt         ,
                                         A m o unt
                                                                      ,                                       RespolI!le

            ~                                  ,,,,,                      ,
 873!08     40628J7        S6I67                                                                     Th'C i"'~'."'h.~,"
                                                                                                   I account to code
                                                        I:'''''';'                                     promotiona l & marketing
                                                                                                       materiais. The City
                                                                                                   Iac;nts for s.uch ,ntie .
                                                        I roo f" ,..,
            ~                                                                            "ym,"'
                            "9.00            '49.00                                  d
101J0I08                   "".50            >262.50              i                                 I;~;;;'';rod;" h '"
                                                                                                                  ",
                                                                                         i,
                                                         ="7'"
                                                        Isupp ,<:s.                                 promotional & marketing
                                                                                                    materials. The City
                                                                                                    aceoulI~s fO~ s~c:uDDlies.
                                                                                i,                                ,
4/j/09

  sn""
            ""'"
              699<"2
                            $31.50

                           $64680
                                               '31.50

                                            ....6.80
                                                     I::'::~i~:"                     ~,,,'



                                                         Marketing expe nse (award


.,/2,,,,                                                 .~;~~i;/: ~:IOOS)                          The City does not have an
                                                                                                    account to code
            """"6999ili                     ""0.92
                                                                                                    promotional & marketing
                                                                                    (,,:~~paCks)    materials. The C ity
 smiM       699<, .,
                .           .                            ~                                          accounts for such
                                           "             Marketms expense for
                                                         backpacks recorded as AUlo
                                                                                                    expenditures in supplies .


                                                 ,
    ,
  611ro,

    ,
              7100731
                     ,
                     ,
                                                 ,
                                                 ,
                                                                                                              , : S<Ni" "'"'
                                                                                                    for TEEN Court at
                                                                                                    Kennedy Middle School

67V09                ,                           ,                                                  Safehaven.

 -i7i/ii9   7j(jQjJJ      7:6illO          7.687.00             Iti


  "'109       7100731      7.687.00        7.687.00             Ilill~ fe~s   for

  l ~."                    ,96<>.'                      I ""Ii" 'o,'RS                                        ,
             """9                           $9"'. "
                                                                                                     "
                                                                                                   I::~.:.vm';" '"ro."
                                     ,

                                            Exhibit 2 - 1




                                                 61

                                          Amo unt                                                        Response
   0",      N"'~
                         .~
~                                            $63.67                   ;;m;;J              I 11o.C",
                                                                    ,,,           I           account to ,ode
                                                                                              promotional & marketing
                                                                                              materials. The City
                                                        Expense.
                                                                                          I -""~
                                                                                               Ii
 10130108                                   $262.50                 ;;-;;;;d              J11i'Cii
                                                        Marketing expense (I-shins)
                                                        recorded as Non-                      promolional &. marketing
                                                                                              materials. The City
                                                        consumable supplies.
                                                                                              accounts ro: ~~c:',nnliP'
 5i1i09                                                         ,         >0'
                                            $646.80                ,I
                                                        Marketing expense (award          I!:~~::,;o."~ '"
                                                        ribbon s and stick-o n tattoos)       promotional & marketing
                                                                                              materials. The City
                                                        recorded as Catering

  '09109                                                        ;I",
                                                                                          I   ::*unts (0:~~c;~~:~~~
                                         (description Marketing expense                       account t~~~~ -
                                       above rence\s (backpacks) reeorded as                  promotional & marketing
                                                                                              materials. The City
                                              wrong Telephone Expense.
                                                                                              accounts for such
                                            amount)                                           experlditures in supplies.
  ,noro9                                                      ; ',"d
                                          $1.147.00
                                                        Marketing expense for
                                                                                                            '"" ",,""
                                                                                              account t~-;od~~
                                                        backpacks recorded as Auto            promotional & marketing
                                                                                              materials. The Cit)'
                                                        Allowance.
                                                                                              acCOUlUS for sllCh
                                                                                                     ;
                 ;
                           Sub'~Ia1                         ,
   319109    " "759         $96<).15         $96<) 15                           , C,m"                             '$   iTem to
                                                                                          I";0";'                           ,
                                                                                                                        '''"M'
                                                                                          I ;~;;;,;~;;, ;~.;;;':
                                   ,         ' %0.15


Grant Number 2007-WS-Q7-0088
$3, I 02 for promotional items For Gmnt Num ber 2007-WS-Q7-0088. the city spem S6, I02 (5
transactions described below) on promotional items for National Night Qut (NNO) and other
community Clients. However. gl1lntees are limited [0 $) ,000 per year for such expenditures. The city
recorded these expenditures as Telephone Expense ($3,980.92), Auto Allowance ($], [47.00)
Catering ($646.80 and $63.67). and Non-Consumable Supplies ($263.75), which made all of thes.;
                                             Exhibit 2 - 2




                                                 62

expenses appear allowllble. However. we question $3.102 of these expenditures as unallowable
because they exceeded the $3,000 annual limi t.

 The City concurs S3, 102 offhe promotional expenditures exceeded the limil and are unallowable.

$49 fee for a late credit card payment - For G ranl Number2007.WS·Q7·0088, the city charged $49
to the grant for a fee for late credit card payment. We question the $49 as unallowable because we
consider thi s an unreasonable cost. Reasonable costs are described in the repon section titled OMB
Circular A· 1I7.

The City concurs this as a nvnallowable expendil/lre.

$31.847 to a local distriC) IIl!0rncy's office For Grant Number 2007· WS· Q7·0088, the ci ty made
four payments 0[$7,961.70 each to a local district attorney's office for "reen Court" sessions. The
four invoices are dated June 25, 26, 27. alld 28. 2009. The grant ended June 30, 2009. We asked the
city to provide copies of any agenda for the teen coun sessions and sign·in logs for persons who
attended the sessions, but none of those documents were provided to us. We question the $31,847 as
una llowable because the expenditures were not in the grant budget appro ved by OJ P. The amounts
also appear unreasonable.

The City does not conCllr. The expenditllre or payment dale does not refle,", the activily date. The
nllmber of cases heard dllring the period Augllsl 2008·June 2009 lota/ed /11. Because of the
confidentiality, sensitivity and protection of individual teens, a sign in log and record of participants is
not maintained. The Teen Court sessions were successful in that assistance is provided to the teens in a
court setting outside of 0 real court.

The projec/ was a preventive meaSlire tf} keep children in school and a mechanism to inlen'ene in
suspension and other conflicts althe Kennedy Middle Schaol &ljehal'/!/!. Peers ofthe (kfendallls
occupy the roles ofthe allorneys. clerk. bailiff and the j llry. Sign in sheets are nOt utilized as
offender parenlaJ com'elll would be needed. TEEN Court data summary alld TEEN Courl allorneys,
clerk, bailifflmd the jury activity documenullion aI/ached.

$15.374 to work on th e Weed and Seed grail! application For Grant Number 2007· WS.Q7.0088,
the city paid $7,687 to a former city o fficial and $7,687 to a consulting agency to work on the Weed
and Se~d b>rnn t application. The b'nlnt ended Jun e 30, 2009. The invoice for the former ci ty offic ial is
dated June 28, 2009, and the invo ice from the consultant is dated June 30. 2009. The invoices did not
incl ude the hourl y consulting rates or bours worked. According to OMS Circular A·87, costs of
preparing proposals for potential federal awards are allowable if they were approved in advance by
the federal awarding agency. We question the $15.374 as unallowable because these cost~ were not
in the grant budget approved by OJP.

The City concurs Ihis as a lIonallowable expenllitllre.




                                                Exhibit 2 . 3




                                                    63

$960 for supplies for thl:: IRS VITA program For Granl Number 2007-WS-Q7-008H. the city
cha rged $960.15 to the grant for suppl ies fo r the IRS VITA program. The grant budget approved by
OJP did nOI incl ude suppl ies for Ihe VITA program.

The Cirydocs nOt concur. The Voiunleer Income Tax Assiswnce ( VITA) Cenlers were approved in
Weed and Seed sites across the COllntry. With OJP equipment and sojiwure grant. AI/allla opened II
VITA Celller in Allanfa and IRS is olle ufthe paNnerS. The generu! supply materials Ilsed at the
V/1"A Celller us OJP approved project is alfowahle.




                                            E~hi bi l   2-4




                                                64

_G'""' ,
   Dale
   '"Wen    No. P,,,id'"
                           Amount
                            I             ~                 Roo' I                   'Y'" .rr"
                                                                                                          I
                                                                                                           .
                                                                                                           i            ~
                                                                                                                NOlan
                                                                                                   original budget item
                                                                                                   however sa~ing, in
                                                                                                   neighborhood
                                                                                                   coordinators and
                                                                                                  community
                                                                                                  organizers category
                                                                                                  allowing for atXe5S
                                                                                                  1 residents and
                                                                                                   0
                                                                                                  commun ity based
                                                                                                  stakeholders 10
                                                                                                  participate in
                                                                                                  community
                                                                                                  m~ings,               spec ial
                                                                                                  e~ents       lUId otber
                                                                                                          i
  ,nolO9    No. Pro"id,d
                                                          I ;;;'':',"C'' p'''''" ,        '''m                      i

   '''10'   NO. Pro"id,d                    $1,611,77
                                                                 i          ~'"'
                                                                                                 ~
                                                                       service granls expense
                                                                                                 ,              ,


  """10'                        ""'.39        "")9        I ~'ood expense                                I
                                                           began al noon.                         substantive
                                                                                                  instructional
                                                                                                  material presented at

   WJIO'                                     SIlO,"
                                                          I ~::i~g.
                                                                      ,      ,        i          ~ho=o.
                                                                                                  subslanlive
                                                                                                  im!rUctional
                                                                                                 I ~!:~Prtsented 3\
   '''109           i                          $4'0<                          Ii
                                                           mee1ing.                               substantive
                                                                                                  instructional
                                                                                                 I ~:~Iil~.pre.sented at
  9mlO'     NO! Pro"id,d        '9l7,OJ
                                             ,,"'"'                                                   i                    ,
                                                                                                                        roo
                                                                                                  police telephones 10
                                                                                                  support IKlka!




                                          Exhibit 2 . 5




                                             65

(iron, Numba lOO7.WS·Q7.0150

$12,300 to leaS!,: space for communitv of1!unizers For Grant Number 2007.WS-Q7·0250, the city
paid 512,300 in advance to lease space for neighborhood coordinators and community organi zers,
The city entered into the lease agreement on June 22, 2009, The gran t ended June 30, 2009. The I.
yea r lease period began July 1,2009, which was after the grunt ended. The $12,300 expenditure is
unallowable because the grant ended before the lease start date. The expenditure is also unallowable
because rent expense was not in the grant budget approved by OJP.

The City does nOI com:ur. The COSI of renting slklce (SI2.300) for a neighborhood C/Jorciina/or and
community orgimi.er.\· ",a.va service grant adjustment 10 the English A~'enue Neighborhood
Association. This was nOI an original budget item, however savings in the neighborhood
coordina/or~' and community organizers category pmvMed an opportunity 10 the residenl~' 10
participate in community meetings, special events and other aClivities. Although Ihe lise a/funds WIlS
not approved prior to renting the space, il did provide a greal benefit TO the communily (lnd did
supportlhe grant goal.r, objeclil'cs and Olilcome m(!aSlires. WithoUllhe Slk/ce fhe communily
im'o/w?menl would have bccnlimited.

$3,000 to publish news letters - For Grant Number 2007· WS·Q7-0250, the city made a 53,000
advance payment t9 publish a bi-monthly newsletter for a period of2 yea rs. The stan date oflhe
written agreement to publish the newsletters was June 9, 2009, but the grant ended 21 days later on
June 30. 2009. The expenditure is unallowable because it was for goods or services to be provided
aller thc grant ended. The city provided no documentation to support that the recipient of the $3,000
had published the newsletters.

The City concurs this as a nonufJOlI'uble expendilure,

$1.612 jn credit card charges For Grant Number 2007· WS-Q7-0250, the Weed and Seed Director's
credit card statement showed a charge of$4,925.45 for a deposi t for hotel rooms for a youth camp.
The city chargcd this amount to the grant. Howeve r, the credit card statt:ment also shows a $ 1,6 11.77
credit from the hotel. The Weed and Seed Director told us the original hotel bills arc miSSing and the
hotel is unable to provide dupl icate receipts. The accounting records for the grant do nOt appear to
include a credit for $1,611.77 therefore, we question 5 1,6 11.77 as unallowable because the funds
were reim bu rsed by the hotel but not reversed in the accounting records.

The City concurs this as (I lIonafJOlI'able expendilUre.

$917 for police cell phone exoenses For Gmnt Number 2007- WS'Q7·0250, the city charged
$917.03 to tht: grant for police cel l phone expenses, but this expense was nOt in the grant budget
approved by OJP.

The City concur.I' this a.~ a nonafJowable expenditure.




                                               Exhibit 2 - 6




                                                  66

                                                            meeting.                         Senior Community
                                                                                             Safety Session at
                                                                                             New Horizons
                                                                                             Senior Centtr wbere
                                                                                             $ubstantive
                                                                                             illStructional
                                                                                             materia! presented at




Gram Number 2008-WS-QX_02J9

$18,000 for sa laries for "volunteers" - The Internal Re ven ue Service (I RS). in coord ination with a
local workforce age ncy, has a Volunteer Income Tax Assistance (V ITA) program designed to
provide free income tax assistance to qualifying individuals, IRS-trained volunteers provide the
services. For Grant Number 2008-WS-QX-02 I9, the city reimbursed the workforce agency $8,000
from grant funds for salaries for VITA program "volunteers." Howeve r. according to the grant
budget approved by OJP, the S8,DOO was to be provided from city funds as pan or its matching share
of grant costs. In addition, the matching funds were to be used for a VITA Center Coordinator.
However. the invoices Ihe city provided for the S8,000 were from fou r volunteers and the invoices
stated thaI the payments wtlre for "tax preparation stlrvices." For Grant Number 2009-WS-QX-O 123,
the city reimbursed the local workforce agency $1 0,000 for VITA program volun ll;:ers time.
However, according to the grant budget approved by OJP, the $10,000 was to be provided from city
funds as pan of its matching sha re of grant costs. We qUl;:st ion the $18,000 as unallowable because
those costs were to be paid from city funds as pan of ils matching share of grant costs.

The City does not concur. VfTA was perceh'cd (IS (I mandatory unjXIid voluntf!f!r o{Jeflllion.
HowCl'cr, this was a SlUff managed project where some volunteers are IRS certified lax prefXJrers.
OJP apprOl'Cd S16.120jor u VITA Center Coordinator. Funds were used in Ihe category of
coordinators bill multiple persons Iised of/owing/or the coordinating of operalions up 10 6 days a
week.

$39 fee for a returned paymtlnt - For Grant Nu mber 2008·WS-QX-0219, the city charged a $39
relum payment fee to the grant. We qutlsl ion thl;: $39 as unallowable because we consider this an
unreasonable cost. Reasonable costs are described in the repon section titled GMR Circular A-87.

                                             hhibit 2 - 7




                                                 67

The City concurs this as a non(lllowable expenditure.
Gr/JIII Number l00S_WS_O:(_On l
     611109        89634          .11 1.967.62      S276. 12 HOlel and per diem COStS exceeded !h~         NEED MORF.
                                                                 federal rate                              DETA I LS TO
                                                                                                           D£TF.RM INE.
     9B 1<J9      102009          .111,000.00     SI,OOO.OO      COSt of ~O person to allemJ civic         Allowable -
                                                                 league fUllction, which was not in the    Approved
                                                                 gra nt bu<Jget approved by OJP.          community and
                                                                                                           leadership
                                                                                                          development
                                                                                                          approved expense
                                                                                                          and Civic League of
                                                                                                          Atlanta provided
                                                                                                          training through Ihe
                                                                                                          Neighborhood
                                                                                                          summit.
     913/09       102010            .11122.35       .11122.35    Food/Catering for Steering Commiuee      Severa! hours of
                                                                 meeling.                                 substantive
                                                                                                          instructiona l
                                                                                                          material presented at
                                                                                                          meetinll.
    12/3109       115442          .111.226.24     .11 I,226.24   Food/Catering for Sleering Co mmil1ee    Four bour session
                                                                 "relreat."                               with severallwurs
                                                                                                          of$ubst3fllive
                                                                                                          instructional
                                                                                                          material presented at
                                                                                                          meeting.
     41311 0      149157            S6~6.96         S636.96      Food/Caterin g for unknown purpose       Several hours of
                                                                                                          substantive
                                                                                                          instructional
                                                                                                          material presented at
                                                                                                          meetinR.
                                  Sub- Iotal     53.281.67



Grlllll Number l00S-WS-QX_01Z1

$276 for lravd rejmbu~ment For Grant Nu mber 2008-WS-QX-022 1, the city charged $1 ,967.62
to the grant for travel expc:nses, but only $1.161 .80 of that amount was al lowable based on the
federal hotel and per diem rates leaving a difference 01'$805.82. We question $276.12 of the
difference as unallowable and $529.70 as unsupported.

The City mncurs Ihi.~ as a nonallowllble e.rpendiwre.



                                                   hhibil2 · 8




                                                       68

$1,000 paid to a local civic league For Grant Number 2008-WS-QX-0221. the city charged S 1.000
to the grant for the cost of 50 persons to attend a neighborhood summit. However, th is expendi ture is
unallowable because the summit expenses were not included in the grant budget approved by OJP.

The City does not concur. The budget approved community and leader.~hip (Ievelapmelll expense and
Civic Leaglle ojA/lama provided (raining through the Neighborhood summi/.




                                             hhibil2 - 9




                                                69

 81311"                                                         ,,,
                                                            ;
 "3011
 81311"
             263561
             "5613                       ,
                                        $ 11

                                                        budget approved by
                                                        OJP, Illis was 10 be
                                                                                     Disallowed
                                                        provided      ~~~~;f ii~
                                                        city funds.~~;.;:~

 3/30111   11701146         '239.81        3m..        I:1;11; ~or      1.5   hour I ;';jj;;~;' ,
                                                                                              ,
                                                                                                        >   with
                                                                                                                   ;
                                                                                                                       ;
                                                                                                                           ;

                                                                                    ~ instructional materia! prtscnted

 6115111                                                                        ,
                                                       I ::~~~hipin a
                            $2 11 .21          $4000                                              .'.
                                                                                                     ,         ."01 "'" , d,b
                                                        warehouse purcllase         1,00".                             ,
                                                        club.                                                   rate and "n large
                                                                                                                          j
                                                                                     quantities and unless there is a business
                                                                                     account purchase under personnel




Grunt Number 1009-WS.QX· OJ1J
$56 in excess consu ltant fees - For Grant Number 2009-WS-QX-O 123, the city cha rged [he grant
$225 for 3 hours of consulting wo rk an d OJP limits consultant fees to $56.25 per hour. We qu estion
S56.25 as unallowab le [$225 minus ($56.25 x 3 hours)] because it exceeds the maximum rate
allowed by OlP.

The City does not concur. The 201 I Financial Guide (Revised July 2012). page 45, (Iflow for
conslIltants /0 he JXlid a compelilil'e rale. II isjelilhe rate thai was poid is jair when compared fa
Ihe markel.

$11,660 billing error For Grant Number 2009·WS·QX·0[23, the city paid $12,885 for 40 persons
to participate in a [ocalltladership summit. However, the invoice from the community foundation
states that the unit cost per person was $30.63. Conseq uently, the correct bi lling amount should have
been $1 .225.20 (40 x $30.63). The city appears to have overpaid the foundat ion $11.660 ($ [2,885
min us $1,225). We asked the c ity [0 explain this error, but we never received a response. Failure to
identify bjJIi ng errors demonstrates that the city did not adequately review grant expenditures before
payment. We question the $ [ 1,660 overpayment as unallowable. The invo ice is dated September 30,
2011. The grant also ended Septem ber 30, 20 11.

The City concurs this as a I/ol/allowable expendilure.

$40 for a personal membershi p - For Grant Number 2009-WS-QX-012 3, the city charged the granl
$40 to renew what appears to be a personal membef5hip in a warehouse purchase club. The S40 is

                                                 Exhibit 2 - 10




                                                       70

unallowable because it appears to be a personal expense and the grunt project aln:ady had a cl ub
membership in its own name.

The Ciry does no/ concur. The grant project did nO( pay jor a person(ll membership. This
membership was obtained 10 1111011' plirchll.feS jor gram. Discount clubs allowsjor snacks to be
pU"'ha~'ed aI a reduced rate ami in large quantities.




                                            hhibi l 2 -11




                                                71

Grant Number 1009- WS-QX-Ol lj

G aft' Number 10QIJ-WS-QX-Ollj
 ',
    8111110     10818112       $603.54                 S60354     Duplicale payment                        Unallowab le
    81271]0     10775195       $698.97                 5698.97    Camera                                   ~!~VedOJP
                                                                                                           ex se for $500
     913/10      10793053            $297.00           $2 97.00   Food;~~r Sleering Committee
                                                                  meClm .
   11/2 8110     11114182         $1,800.00          $1,125.00    Consulting fees ($ 150.00 per hou,)
                                   Sub-Iolal         $2,724.5 .



     618'1                                             .    .           1
                                                                                    i(fuC'=                         I       I
    111411                           $6" 25            SOJ525     ~i
                                                                  I
                                                                  mee   ing.    hours
                                                                                                     in
                                                                                                           instructional
                                                                                                          I~:~~         presen ted at
    1f3J / 12                        ml.DO             ml.oo      '1    '               i'ii
                                                                  fi'~;'          of openin~ of            instruclional
                                                                  neighborhood reso-uree center.          I :.a
                                                                                                             e
                                                                                                                  ':2
                                                                                                                  al presented al

    211 0112     1 1                Sl2'"             .w."                                                 instructional
                                                                                                          ~ntedat


                                                                               '"
     316112      1                  $825.00           $825.00                                  i"g
                                                                                                           instructional
                                                                                                           ~:~~~_.presented al
                                                                                                                   ,

$7,904     duplicate paymt:nt.

The eily conCur~' lhis as a nOf/allowable expendilllre.

$699 for a digi tal camera For Gr.. nt Number 2009.WS-QX-OI25, the city charged $698.97 to the
grant for a digital camera and accesso ries. The purchase was recorded as "supplies for the upcomi ng
Stet:ring Committee meeting." The digital camera purchase is unallowable because it was not in the
grant budget approved by Ol P.

The City docs nOl concllr. This   Will'   an appro"ed budget item.

$5.393 for food and catering - Tht: city chargcd $5.393 in una llowable costs to various grants for
food, bevcrages, and catering. including $2,627 for Weed and St:ed Steering Committee mee tings.
One charge for food for $ 1.226 was for a comminee "retreat." The expendilures arc unallowable

                                                    Exhib it 2 • 12




                                                        72

b«au~e they do not meet the requirements of OJP's Food and Beverage Po licy described previously
in this repon.

The City COI/Cl/rs this liS a mmallowab/e expenditure.

$1. 125 excess consultant fees For Gr'dnt Number 2009- WS-QX-0125, the eity paid a consultant
$150 per hour for 12 hours of work. According to the OJ P Financial Guide, consultant fees are
limited to $56.25 pel" hou r. We question the $1,125 difference as unallowable [($ 150 minus S56.25) x
12 hours].

The City does not concur. The 2011 Financial Guide (Revised July 2012) , page 45, a/low for
consultants 10 ba paid a competitive rate. It is felt the rate that was paid is fair when compared
to the markel.




                                            Exhibit 2 - 13




                                                73

      Exhibil3

5


           Amount Not
                    I




                        1 $21,251.10




    EKhibil 3 - 1




      74

           Sub·total             $14,236.83
Outstanding Remed y                 $893.80




              29.97                     29.97
             219.19                    219.'9
             209.20                    209.20
             209.20                    209.20
             219.                      219.19




             209.20                    20920
             18'.'"                    18''''
                                                                ~
             '68.33


                                       '::::1
                                            ::
             396.75
                                       3 96.
                                               75
                                                    1
                                                    E~~;;;i.i




                       !;)hibit 3· 2




                         75

                                                        , an""",

93262                          ,274.4,   I • •• ~


""u                            ""0            : ,sam,. 37 "'"h'"
91475    39770                 39770 ~.38.


115862   20053                 200.53    I•   ~.~.




                 Exhibit 3·3




                   76

Grant Number 2008-WS-OX-(J221




                                               $410.61 Holel Daniel
                                               684.31 Holel     I
                                               $122.50 Per            requirecl) Daniel
                                                                      required) Daniel




                                hhibit 3 - 4




                                  77

Granl Number 20(J9.W5·07-{)123

813112010    12106554            $12.802.30                 $12.00   NA
913012011      263563                $3.000              $3.000.00   Neighborhood LNd.,..hlp Inltltute
                                                                     Admlnll tratlv. breekdown
                                                                     coordlnldlng Nelghbomood
                                                                     LMdeflhlD fnilitute· Du....ndina
                              Sub-total                  $3,012.00
            Outstanding Remedy Amount                    $3,012.00




                                              Exhibit 3 - 5




                                                78

Grant Number 20C9-WS-Q7-o 125
  1112120 10   10924945         $1,250.00              5 1,250.00   Document Attached
  11 1212010   10924945         $1 ,250.00             51,250.00    Documenl Attached

  11 1212010   10924945         51,250.00              $1,250.00    Documenl Attached

  11 1212010   10924945         51,250.00              $1,250.00    Document Attached

  11 1212010   10924945         51,250.00              $1.250.00    Documenl Attached

  111212010    10924945         5t.250.00              $1,250.00    Documenl Attached

  11/212010    10924945         $1,250.00              $1,250.00    Document Attached

  111212010    10924945           400.00                  400.00    Document Attached
                                Sub-total              $9,150.00
               Outaundlng Ram.dy Amount                       SO




                                             Exhibit 3·6




                                               79

Grsnt Number 201D-W$-QX-0094
                                                        $30.00   Document Attached
 6/81201 1   12596745      $8.125.16
                                                        $60.00   Document Attached
                                                      $300.00    Document Attached
 6/81201 1   13533474      $7.300.00
                                                      $300.00    Document Attached
10/412011    12631574       $500.00                   $500.00    Document Attached
                                                       $77.94    Document Attached
 618120 11   13868229      $7,645.47                   $29.88    Document Attached
                                                      $600.00    Document Attached minus ($150.05)
                               Sub·total            $2,035.41
             Outstanding Remedy Amount                $150.05




                                       Exh ibit 3 · 7




                                           80

                                                                 Appendix 8

   Office of the Inspector General Analysis and Summary
          of Actions Necessary to Close the Report

       The Office of the Inspector General (OIG) provided a draft audit report
to the Office of Justice Programs (OJP) and the City of Atlanta. OJP’s
response is incorporated in Appendix 6 and the city’s response is
incorporated in Appendix 7. Along with its response, the city also provided
lengthy attachments that are not included in this final report. The city also
provided documentation showing that salaries identified in the draft report
as excess administrative costs were for providing direct services to the Weed
and Seed communities and should not be classified as administrative costs.
These documents were not provided to us prior to the issuance of our draft
report. After reviewing these documents, we determined that the city had
documentation indicating that the salaries were used to provide direct
services and thus we deleted the language and the recommendation in the
draft report pertaining to excess administrative costs. The final report
contains seven recommendations.

Analysis of OJP’s Response to the Draft Report

     In its response to the draft report, OJP agreed with all
recommendations and stated that it will coordinate with the city to
implement the corrective actions. All recommendations are resolved based
on OJP’s agreement to take appropriate corrective action.

Analysis of the City’s Response to the Draft Report

      In its response to the draft report, the City of Atlanta disagreed with
two recommendations, partially disagreed with three recommendations, and
did not state whether it agreed or disagreed with the three remaining
recommendations.

       The city also asked us to revise certain language in the draft report
pertaining to a $1,955 unallowable grant expenditure. The draft report
stated “the city spent $1,955 for an intercom system at the Mayor’s office.”
The city asked us to revise the report to reflect that this was for the
installation of a door bell at an administrative office. The invoice states that
this expense was for an “Intercom/Access Control System at the Mayor’s
Office of Weed and Seed.” The city recorded this as Consumable Supplies
expense. For administrative costs for this grant, the budget approved by



                                       81

OJP included a $490 line item for postage and a $2,168 line item for “day­
to-day general office supplies for the Mayor’s Office of Weed and Seed.” An
intercom/access control system does not appear to fit these expense
categories. Because the invoice indicates that this expense involved the
installation of an intercom and access control system, we consider this to be
more closely associated with a construction/renovation project at the
Mayor’s Office of Weed and Seed. According to the applicable FY 2008
award solicitation, Weed and Seed grant funds may not be used for
“construction, renovations, demolitions, repairs of any kind, or related
materials.” The $1,955 expenditure is unallowable because the expense
does not appear to be a general office supply item. Such an expense was
not approved by OJP and Weed and Seed funds may not be used for
construction/renovation projects. We made clarifications to this final report
to address the City’s position discussed in its response and the applicable
requirements.

       Along with its response to the draft report, the city provided invoices,
timesheets, and other supporting documentation that was not provided to us
prior to the issuance of our draft report. The city also provided other
documentation that we had previously obtained and considered. The city
analyzed each of the unallowable costs and stated whether it agreed or
disagreed with each item and the reasons for disagreeing. We considered
these new materials provided by the city in analyzing its response to the
recommendations. Our analysis of the city’s response to each
recommendation is discussed below under Summary of Actions Necessary to
Close the Report. In addition, we made edits in the body of the report to
adjust the questioned costs based on the new documentation provided by
the city.

Summary of Actions Necessary to Close the Report

1.	   Resolved. We recommended that OJP ensure the city has
      implemented and follows procedures to ensure that: (1) original
      invoices and other supporting documents are submitted along with any
      payment requests and reviewed for accuracy before they are paid,
      (2) expenditures submitted for payment have not already been paid,
      (3) expenditures are recorded in the accounting records using the
      correct expense categories approved in the grant budgets, and
      (4) it reconciles advance payments to the goods and services received.

      OJP concurred with our recommendation and stated that it would
      coordinate with the city to obtain documentation showing it
      implemented the recommendation.



                                      82

In its response to the draft report, the city did not state whether it
agreed or disagreed with this recommendation. The city stated that it
has procedures to ensure payments are supported by original invoices
and supporting documentation and these procedures are reviewed as
part of the city’s external audit. According to those procedures, the
Office of Grant Services must review and verify all supporting
documentation for grant expenses and verify allowable and
disallowable costs before submitting them to accounts payable.
However, our audit found that the Weed and Seed Director forwarded
payment requests to the city but often kept the original invoices,
receipts, and other supporting documents in her office. Consequently,
neither the Office of Grant Services nor the accounts payable
department had an opportunity to verify the original supporting
documents or determine whether the costs were allowable before
making the payments.

The city’s response also states that it has a continuous audit process
that seeks to identify and recover any duplicate payments. However,
the city’s process does not appear to be adequate because it did not
identify the duplicate payments we found during the audit.

The city’s response states that it records expenditures using the
correct expense codes. However, the city recorded purchases of
backpacks as Telephone Expense and Auto Allowance, a purchase of
shirts as Non-Consumable Supplies, and the cost of engraving plaques
as Catering Expense. All of these expenses were related to gifts and
promotional items for community events which are limited to $3,000
per year.

The city’s response states that it no longer provides advance grant
payments. However, we were not provided a copy of any subsequent
policy.

This recommendation is resolved based on OJP’s agreement and can
be closed when we receive documentation showing the city:
(1) reminded staff it must obtain and review all supporting
documentation and verify allowable and unallowable costs before
submitting the documentation to accounts payable, (2) implemented a
system to identify duplicate payments such as those we identified
during the audit, (3) implemented procedures to ensure grant
expenditures are recorded according to the grant budget categories
approved by OJP, and (4) issued a policy prohibiting advance grant
payments.



                               83

2.	   Resolved. We recommended that OJP remedy $338,790 charged to
      the grant as “Service Grants” expenses, which was not an expense
      category approved by OJP.

      OJP concurred with our recommendation and stated that it would
      coordinate with the city to remedy the questioned costs.

      In its response to the draft report, the city stated that it used the
      Service Grants expense category to keep sub-recipient grant and
      contract costs segregated from the city’s day-to-day business
      operating expenses. However, the city’s accounting system included
      other data fields to identify grant related expenses separately from city
      expenses. Because the city recorded $338,790 as “Service Grants”
      expenses, the accounting records did not accurately describe how the
      grant funds were spent. For example, upon examination of source
      documentation and invoices we discovered that a $16,998 expenditure
      recorded as “Service Grants” expense in the accounting system
      actually included a $12,300 advance payment to rent office space for a
      1-year period after the grant ended and a $3,000 advance payment to
      publish newsletters for a 2-year period after the grant ended.

      The city’s response to the draft report also states that the audit
      reviewed supporting documentation for “Service Grants” expenses and
      no expenditures were disallowed. However, we disagree with this
      statement because we found that $116,723 of $338,790 in
      unallowable Service Grants expenses was also unallowable for other
      reasons or was not supported by adequate documentation.

      This recommendation is resolved based on OJP’s agreement and can
      be closed when the $338,790 has been remedied.

3.	   (This recommendation was deleted from the final report based on
      information the city provided in its response to the draft report.)

4.	   Resolved. We recommended that OJP remedy $117,306 in
      unallowable other direct costs.

      OJP agreed with our recommendation and stated that it would
      coordinate with the city to remedy the $117,306 in unallowable other
      direct costs.

      On page 2 of the city’s response to the draft report, the city disagreed
      with the $117,306 in unallowable other direct costs and stated that it
      had reviewed its records and found that only $61,036 was


                                      84

unallowable. However, the information in the city’s response was
inconsistent, and some was conflicting. For example, as shown on
page 2 of the grantee’s response, the $61,036 it agrees was
unallowable included expenditures for food that was already included
in $5,393 for food and catering, as well as a $10,000 grant
expenditure that should have been paid from matching funds.
However, in Exhibit 2-7 of the city’s response, the city disagreed that
this was unallowable. Further, the city excluded from its $61,036
unallowable expenditures a $276 payment for travel reimbursement,
which it agreed was unallowable in Exhibit 2-8. As a result, although
the city identifies $61,036 as unallowable, by excluding the
inconsistencies in its response, it appears that the city only agrees
with $51,280 as unallowable. Below is the city’s explanation for why
the remaining $66,027 should be allowable and our analysis of the
city’s response.

$31,847 to a local District Attorney’s Office
The city’s response states that $31,847 paid to a local District
Attorney’s office for four teen court sessions ($7,961.70 each) was
reasonable and consistent with amounts paid for similar services as
outlined on page 45 of the 2011 Office of Justice Programs (OJP)
Financial Guide. However, this does not address the basis for our
questioning of the costs. Specifically, we questioned the $31,847 as
unallowable because expenses for teen court were not included in the
2007 grant budget approved by OJP.

$12,300 to lease space for community organizers
The city’s response states that although the use of funds was not
approved in advance, the rented space benefitted the community and
supported the grant goals. However, the expenditure is unallowable
because the grant project period ended June 30, 2009, and the 1-year
rental period did not begin until July 1, 2009. The expenditure is also
unallowable because it was not in the grant budget approved by OJP
for Grant Number 2007-WS-Q7-0250.

$18,000 for salaries for the Volunteer Income Tax Assistance (VITA)
program
The city charged $10,000 to grant number 2009-WS-QX-0123 and
$8,000 to Grant Number 2009-WS-QX-0219 for “volunteer” salaries.
In its response to the draft report, the city stated that OJP approved
these costs. However, according to the grant budgets approved by
OJP, these costs were to be provided from city funds as part of the
city’s required matching share of grant costs.



                                85

$1,125 excess consultant fees
The city paid a consultant $150 per hour for 12 hours of work and
charged $1,800 to Grant Number 2009-WS-QX-0125. In its response
to the draft audit report, the city stated that the 2011 Financial Guide
(Revised July 2012), page 45, allows for consultants to be paid a
competitive rate and the rate the city paid is fair when compared to
the market. However, the 2006, 2008, and 2009 versions of the OJP
Financial Guides in effect during the period covered by the grants state
that consultant rates in excess of $450 per day ($56.25 per hour)
require written prior approval from the awarding agency. In several
instances the city exceeded $56.25 per hour, but provided no
documentation showing that OJP approved the higher rate.

$960 for supplies for the VITA program
The city’s response to the draft report states that VITA centers were
approved in Weed and Seed sites across the country and supplies used
at the site as an OJP approved project are allowable. However, we
questioned the $960 as unallowable because the grant budget
approved by OJP did not include supplies for the VITA program.
Further, according to the grant budget approved by OJP, VITA program
costs were to be provided from city funds as part of the city’s
matching share of grant costs.

$1,000 paid to a local civic league for 50 persons to attend a
Neighborhood Summit event
The city’s response to the draft report states that the local civic league
provided training through the neighborhood summit event. Training is
an allowable cost; however, this expenditure is unallowable because
the grant budget did not include funds for the neighborhood summit
event. The budget included funds for other community events. In
accordance with OJP policy, if this were a training event the city would
need to provide a formal agenda listing all the activities using an hour­
by-hour timeline and sign-in logs showing 50 persons received the
training.

$699 for a digital camera
In its response to the draft report, the city stated that this was an
approved budget item. However, this item was not in the grant
budget approved by OJP for Grant Number 2009-WS-QX-0125 to
which this item was charged. The city recorded this in its accounting
records as Consumable Supplies expense.




                                86

      $56 in excess consultant fees
      The city charged $225 to Grant Number 2009-WS-QX-0123 for 3 hours
      of consulting services. We questioned $56 of this amount as
      unallowable because the hourly rate exceeded the maximum allowable
      rate permitted by OJP. The city’s response to the draft report states
      that the 2012 OJP Financial Guide only requires that consultant rates
      be reasonable and consistent with those paid for similar services.
      However, the 2006, 2008, and 2009 versions of the OJP Financial
      Guides in effect during the period covered by the grants state that
      consultant rates in excess of $450 per day ($56.25 per hour) require
      written prior approval from the awarding agency. In several instances
      the city exceeded $56.25 per hour, but provided no documentation
      showing that OJP approved the higher rate. We calculated the
      unallowable amount as [$225 minus (3 hours x $56.25 per hour)].

      $40 for a personal membership in a warehouse club
      The city’s response states that the city did not pay for a personal
      membership. However, a detailed receipt for a purchase at a
      warehouse club includes a $40 line item for an “Advantage
      membership – [PERSONAL NAME REDACTED].” The city made other
      purchases at the warehouse club using a different membership in the
      name of the Weed and Seed community organization.

      As a result, neither the city’s response nor the documentation it
      attached to its response address the basis for the questioned costs
      discussed above. Therefore, we maintain our questioned costs. This
      recommendation is resolved based on OJP’s agreement and can be
      closed when the $117,306 in unallowable costs has been remedied.

5.	   Resolved. In the draft report, we recommended that OJP remedy
      $62,594 in grant expenditures that were not supported by adequate
      documentation. OJP agreed with our recommendation and stated that
      it would coordinate with the city to remedy the questioned costs. In
      its response to the draft report, the city disagreed with the
      recommendation, but provided documentation sufficient to remedy
      $32,757 of the $62,594. While these documents were not provided to
      us prior to the issuance of our draft report, we have adjusted the
      questioned costs in this final report accordingly. As a result, in this
      final report we recommend that OJP remedy the remaining $29,837.

      This recommendation is resolved based on OJP’s agreement and can
      be closed when the remaining $29,837 has been remedied. Details of
      the remaining $29,837 are presented in Appendix 4.



                                     87

6.	   Resolved. In the draft report, we recommended that OJP remedy the
      $57,588 in grant matching costs that the city did not provide or could
      not show that it had provided. OJP agreed with our recommendation
      and stated that it would coordinate with the city to remedy the
      questioned costs. In its response to the draft report, the city
      disagreed with our recommendation, but along with its response the
      city provided documentation to support $33,679 of the $57,588.
      While these documents were not provided prior to the issuance of our
      draft report, we have adjusted the questioned costs in this final report
      accordingly. As a result, in this final report, we recommend that OJP
      remedy the $24,659.

      This recommendation is resolved based on OJP’s agreement and can
      be closed when the remaining $24,659 has been remedied. Details of
      the remaining $24,659 are presented in Appendix 5.

7.	   Resolved. We recommended that OJP ensure the city implements
      procedures designed to ensure it meets the goals, objectives, and
      outcome measures of the grants.

      OJP agreed with our recommendation and said it would coordinate with
      the city to obtain a copy of its policies and procedures implemented to
      ensure it meets the goals, objectives, and outcome measures of the
      grants.

      In its response to the draft report, the city did not state whether it
      agreed or disagreed with this recommendation, but provided a
      corrective action plan for implementing the recommendation. Along
      with its response to the draft report, the city provided documentation
      to support that the city had accomplished four more of the grant goals,
      objectives, and outcome measures we tested. These documents were
      not provided to us prior to the issuance of our draft report. However,
      we noted in the report that based on the new documentation provided,
      the city achieved 22 of 31 grant goals, accomplishments, and
      performance measures we tested.

      This recommendation is resolved based on OJP’s agreement and can
      be closed when we review documentation showing that OJP has
      ensured that the city implemented procedures designed to ensure it
      meets the goals, objectives, and outcome measures of the grants.

8.	   Resolved. We recommended that OJP ensure the city implements
      procedures to monitor sub-recipients and maintain documentation of
      monitoring activities.


                                      88

OJP agreed with our recommendation and said it would coordinate with
the city to obtain a copy of the policies and procedures the city
implemented.

In its response to the draft report, the city did not state whether it
agreed or disagreed with this recommendation, but stated that it had
monitored sub-grantees and monitoring activities were documented in:
(1) sub-grant awards, (2) sub-grant agreements outlining the scope of
the work, (3) a grant handbook provided to sub-grantees, and
(4) progress reports submitted by sub-grantees. The city’s response
also states that it plans to implement additional procedures including a
system to pay sub-grantees based on accomplishments and outcomes
instead of basing payments on incurred costs. Along with its response
to the draft report, the city provided a copy of a sub-grantee handbook
that states each grant project will be subject to a monitoring visit at
least once during the project cycle, but no surprise visits will be done
unless there is evidence of gross mismanagement. This document was
not provided to us prior to the issuance of our draft report. However,
these monitoring procedures are inadequate because the monitoring
visits were to be done only once during the project cycle, which is too
infrequent for the city to ensure that projects stayed on track to meet
the goals and objectives of the grants. We asked the city to provide
copies of any monitoring visit reports and none were provided to us.

This recommendation is resolved based on OJP’s agreement and can
be closed when we review documentation showing that OJP ensured
the city took appropriate corrective actions.




                               89

